<html>
<title> - [H.A.S.C. No. 112-108]FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM U.S. PACIFIC COMMAND</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 112-108]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          BUDGET REQUEST FROM

                          U.S. PACIFIC COMMAND

                               __________

                              HEARING HELD

                             MARCH 1, 2012



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  _____

                      U.S. GOVERNMENT PRINTING OFFICE

  73-434                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  








                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                Kimberly Shaw, Professional Staff Member
          William (Spencer) Johnson, Professional Staff Member
                    Lauren Hauhn, Research Assistant
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Thursday, March 1, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Request from U.S. Pacific Command.........     1

Appendix:

Thursday, March 1, 2012..........................................    29
                              ----------                              

                        THURSDAY, MARCH 1, 2012
  FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM 
                          U.S. PACIFIC COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Willard, ADM Robert F., USN, Commander, U.S. Pacific Command.....     4

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    33
    Smith, Hon. Adam.............................................    35
    Willard, ADM Robert F........................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    65
    Mrs. Davis...................................................    65

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    71
    Mr. Conaway..................................................    73
    Mr. Forbes...................................................    70
    Mr. Heinrich.................................................    74
    Mr. Langevin.................................................    70
    Mr. McKeon...................................................    69
    Mr. Reyes....................................................    69
    Mr. Schilling................................................    75
    Mr. Scott....................................................    75
    Mr. Wittman..................................................    73





 
  FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM 
                          U.S. PACIFIC COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 1, 2012.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. You know 
with the busy schedule we have had the last couple of weeks I 
inadvertently overlooked the fact that we have a new Member of 
our committee, my colleague from California, Jackie Speier. We 
want to officially welcome you to the committee and are happy 
that you are here with us.
    Good morning, ladies and gentlemen. The House Armed 
Services Committee meets today to receive testimony from 
Admiral Robert Willard, Commander of the United States PACOM 
[Pacific Command], more than 38 years of service, almost 39. 
You have distinguished yourself as one of our top military 
leaders, one of our top pilots. I understand that your claim to 
fame is wearing the black hat, flying the enemy plane in ``Top 
Gun.'' Congratulations you survived that.
    Admiral Willard, thank you for your long, distinguished 
service to our Nation. And thank you to Donna, your spouse, 
your partner. She has also been a great support of the Navy. I 
know when we were down there she was the--I don't know the 
title but it was kind of like you did everything for the USS 
California and their crew.
    Admiral Willard. Sponsor.
    The Chairman. Our newest attack submarine and I was able to 
participate a little bit in that and saw the love that the crew 
had for you and those who built that boat. So it was good to 
see Admiral Willard taking your picture and fitting in the role 
reversal model.
    Admiral, with your retirement next week I know you have 
been very busy handing over command to Admiral Sam Locklear. So 
I thank you for taking the time to appear before this committee 
one last time. I apologize in advance, we will be having some 
votes. I know Members will be leaving, but we do really 
appreciate you taking the time to be with us.
    Our economy and security has never been more dependent on 
our military, especially in the Asia-Pacific region. The 
President's new strategy focuses on a so-called pivot to the 
Asia-Pacific. While I don't quite question the critical 
importance of this theater, I am concerned that our forces may 
not be properly postured to support this ship. The Chief of 
Naval Operations has said that ship and aircraft deployments in 
the Pacific would remain at current levels. Over the next 5 
years we cut 16 ships out of our new construction budget and 
retire 9 more. Further, our tanking and airlift capacity will 
be reduced, limiting our ability to project power and sustain 
our forces.
    This budget does not address reductions to our nuclear 
deterrent, but the Administration is reportedly contemplating 
unilateral reductions below New START [Strategic Arms Reduction 
Treaty] levels. As you have discussed often with us, quantity 
does have a quality all of its own, especially in a theater 
that covers half of the Earth's surface.
    We must be prepared to effectively respond with the needed 
manpower and assets. As I stated at last year's hearing, it is 
important our forces in the Pacific have the personnel, 
training, equipment, and the authorities they need to instill 
confidence in our allies, deter aggression, and remain ready to 
respond decisively to any contingency. It is not yet clear how 
the new strategy will meet these goals. Events in Asia can 
change rapidly as we saw in December with the death of North 
Korean dictator Kim Jong-il. Alongside our South Korean allies, 
our forces must be ready to deter further North Korean 
provocation.
    China's growing influence creates concern for many of our 
regional allies. The balance of power against the Taiwan 
Straits continues to shift in the direction of Beijing. The 
South China Sea is a vital shipping lane through which more 
than $5 trillion in trade passes each year. Deterring, 
delaying, or denying U.S. forces from operating along China's 
periphery is still a key goal of the People's Liberation Army. 
As China's military budget continues to grow annually by double 
digits, the PLA [People's Liberation Army] is focused on 
improving their capacities to counter U.S. military 
capabilities and exploit any potential weaknesses that we may 
have.
    We also see the growing threat of terrorism in the region 
as aims of certain groups like LeT [Lashkar-e-Tayyiba] expand 
beyond their traditional border disputes.
    In partnership with our allies and friends, our forces must 
stand ready to respond to unprovoked, hostile behavior and 
defend our regional allies and security interests.
    We look forward to your testimony and shedding the 
additional light on the matters and the range of security 
challenges that we face in the Pacific.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 33.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I, too, want to join 
you in welcoming Ms. Speier to the committee. It is great to 
have her on. We have already worked on some issues that she has 
been interested in on the Armed Services Committee. It is great 
to have her on the committee and welcome. It is great to have 
you join us.
    I also definitely want to thank Admiral Willard for being 
here today, but also for his service. He is retiring soon, his 
last opportunity to testify before us, and we certainly want to 
thank Mrs. Willard as well. It is a total team effort, a career 
like the one that you built. And we really appreciate all of 
have both done for our country.
    I also appreciate talking to Mrs. Willard before and she 
said that her presence she always thought it would make the 
Members be nicer to Admiral Willard, but she did point out that 
it never actually worked, but it is still sentiment. We really 
appreciate all that you both have done, great service to our 
country. And your last command incredibly important in the 
Asia-Pacific theater, we have a number of allies and partners 
in the region and a number of challenges in the region. I agree 
with the list the chairman rolled out, trying to figure out how 
to deal with the rising China, the unpredictability of North 
Korea, a number of different terrorist groups in the 
Philippines, Indonesia, and elsewhere. It is a critically 
important region.
    The Navy is one of our best, best allies in terms of 
delivering a positive U.S. message; it shows our presence in 
the region. I think that is the most important thing about our 
strategy going forward. The President has said we are a Pacific 
power. We want to make it clear to everyone in the world, 
particularly in the Asia-Pacific region, that we will continue 
to be a Pacific power, and the Navy is one of the best ways 
that we demonstrate that. Our presence there builds those 
partnerships and builds those relationships.
    I remember reading somewhere that last year alone there 
were over 700 port calls in Asia by the Pacific Command, and 
all of those are opportunities to build relationships and build 
friendships and build partnerships. Of course our Pacific 
Command has responded to many natural disasters in the area, 
most recently that earthquake and tsunami in Japan but 
certainly the earthquake and tsunami before that in Thailand 
and Indonesia.
    You put the best face on U.S. policy in the region and we 
really appreciate that work. It is critical that we give you 
the resources to enable that mission to go forward.
    I look forward to your testimony, look forward to your 
answers to our questions, and again thank you very much for 
your service and your leadership.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 35.]
    The Chairman. Thank you very much. Admiral.

   STATEMENT OF ADM ROBERT F. WILLARD, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Willard. Thank you very much, Chairman McKeon. Mr. 
Chairman, in order to accommodate the committee's questions 
sooner, I will keep my remarks brief and ask that my full 
statement be included for the record.
    The Chairman. Without objection, so ordered.
    Admiral Willard. Chairman McKeon, Congressman Smith, thank 
you for the opportunity to appear before you to discuss United 
States Pacific Command in the Asia-Pacific region. I would like 
to begin by thanking you for recognizing my wife Donna and her 
sponsorship of the USS California. She is present today and has 
been at my side for nearly 38 years. She is an outstanding 
ambassador for our Nation and a tireless advocate for the men 
and women of our military and their families. Together we have 
thoroughly enjoyed this experience both with our counterpart 
foreign friends and with all of you who advocate for our men 
and women in uniform. Thank you.
    I would like to acknowledge this committee's enduring 
support for our joint forces and by your actions their 
contribution to our Nation's security. Your visits to the 
region have been and will continue to be an important reminder 
of the United States' national interests there.
    North Korea, the world's only remaining nation divided by 
armistice, continues to threaten peace and security in 
Northeast Asia now under the leadership of a 29-year-old son of 
Kim Jong-il. There we are observing closely for signs of 
instability or evidence that leadership transition is 
faltering. As General Thurman will attest in his testimony to 
you, we believe that Kim Jong-un is currently tightly 
surrounded by KJI [Kim Jong-il] associates and for the time 
being that the succession in North Korea appears to be on 
course.
    With that said, we also believe Kim Jong-un will continue 
to pursue his father's course of strategy that embraces 
nuclearization, missile development, WMD [Weapons of Mass 
Destruction] proliferation, provocations, and totalitarian 
control over North Korean society.
    As you stated, management of the China relationship 
continues to be a challenge to U.S. Pacific Command on many 
levels. Our military-to-military relationship is still not 
where it should be. Although a strategic level exchange of 
views with DOD [Department of Defense] persisted throughout 
2011, the PLA continues to advance its military capabilities at 
an impressive rate, is growing bolder with regard to their 
expanding regional and global presence, and China continues to 
challenge the United States and our partners in the region in 
the maritime, cyber and space domains.
    President Obama and Secretary of Defense Panetta recently 
reaffirmed the strategic importance of the Asia-Pacific and our 
Nation's future focus on its security challenges in the 
document ``Sustaining U.S. Global Leadership: Priorities for 
21st Century Defense.'' It appropriately addressed the 
opportunities and challenges that PACOM faces in a region 
covering half the world and containing the majority of great 
powers, economies, populations, and militaries.
    Importantly, our five treaty allies, Australia, Japan, 
South Korea, Republic of the Philippines, and Thailand, 
together with many regional partners, represent the greatest 
opportunities for the United States and Pacific Command to 
contribute to a broad security association in the region. Of 
particular note we seek to advance our important relationship 
with India in South Asia.
    We are making progress in adjusting PACOM's force posture 
toward Southeast Asia, following overtures from Australia, 
Singapore, and the Philippines to help enable and increased 
rotational military presence in this important subregion.
    As was evidenced by United States support to Japan during 
the epic triple disaster last March, close military 
cooperation, frequent exercises, and interoperable systems 
merged to create the type of partnerships that take us to 
levels of cooperation such that we are ready and effective.
    Throughout the Asia-Pacific numerous transnational threats, 
such as bio and extremist organizations, proliferation, 
trafficking, piracy and perpetual natural and manmade 
disasters, challenge our Nation and our allies and partners in 
the region. Across this wide spectrum of current and potential 
future threats PACOM must provide persistent overwatch, 
ensuring our Nation retains continued strategic access and 
freedom of movement in the global commons.
    Amidst this challenges everyday our soldiers, sailors, 
airmen, marines, and civilians devote their efforts to 
contributing to Asia-Pacific security. Their success has long 
been enabled by this committee's enduring support, including 
the resources and quality of life that you provide them to 
accomplish their important missions. During the 2\1/2\ years 
that I have been in command you have allowed me and my 
commanders to share our perspectives with you, sought to 
understand the dynamics of this complex region, and traveled 
and met with our military families and foreign partners. Yours 
has been a powerful message and demonstration of U.S. 
commitment to the 36 nations in the Asia-Pacific. On behalf of 
the more than 330,000 men and women of the United States 
Pacific Command, thank you for your support and for this 
opportunity to testify one final time. I look forward to your 
questions.
    [The prepared statement of Admiral Willard can be found in 
the Appendix on page 37.]
    The Chairman. Thank you very much, Admiral, and again thank 
you for your distinguished career, your tremendous service to 
the Nation. I think this command that you are retiring from is 
one of the most important to our Nation and to the world. And 
with the President's new switch in strategy and moving, as he 
said, moving, I don't know exactly how he put it, but moving 
more emphasis on the Pacific region, I think as we have had 
other chiefs coming in and testifying talking about the budget 
cuts and how we are going to be asked to do more with less, it 
seems that no region will be asked to do more with less than 
your command. And what I would like is if you could lay out for 
us are you gaining any additional capacity or ability to carry 
out this new effort? And could you let us know what in your 
best military judgment the requirements, capabilities, any 
potential gaps that we should be looking at as we go through 
the budget process and reaffirming this announcement by the 
President. Please.
    Admiral Willard. Yes. Thank you, Chairman. And I think one 
of the relevant questions of the day, given both the budget 
that has been presented and the strategy that has been 
articulated by the President, by Secretary of Defense Panetta. 
U.S. Pacific Command in the 2\1/2\ years that I have been in 
command and in my previous assignment as U.S. Pacific Fleet, 
has been well served I think by the Nation in terms of the 
force structure that is there. And while we have been there we 
have been endeavoring to adjust posture to optimize the forces 
that we do have. We have been at war for 10 years and during a 
decade of warfare we have given to the theater, as all the 
combatant commanders have, such that particularly our Army and 
our Marine Corps have been decremented by about 10 percent as 
they have rotated in and out of Iraq and Afghanistan over the 
last 10 years.
    When you ask the question will we gain more, I think as we 
draw down from two wars that are now a decade old, we will see 
a recovery of particularly the ground forces that have been so 
dedicated to those conflicts. As well the strategy that has 
been laid out by the President and Secretary of Defense 
prioritize the security environment globally, and I think that 
is very important to both recognize and then track to ensure 
that we actually take the actions that those words I think so 
appropriately establish. And it provides focus on the Asia-
Pacific region as one of those important security environments 
globally. And your summary of the rationale, the reasons why I 
think was very accurate.
    So I think what is important is to recognize that even in a 
situation where the budget will cause for force reductions 
postwar and given our current economic environment within the 
country, that where we bias the forces that we do have will be 
most relevant, and given the focus on the Asia-Pacific and the 
focus on the Middle East, I think that in the future we should 
anticipate that the force structure that we attempt to optimize 
will be biased in those directions. So I expect U.S. Pacific 
Command to continue to be well served.
    So to the extent that the budget focuses on particular 
capabilities, ballistic missile defense, cyber and others, I 
think all the combatant commanders will enjoy increased 
emphasis there, but in the Pacific Command I look forward to 
the ground forces in particular, our special forces, returning 
to the region on a permanent basis and for the focus to be 
represented by a biasing of other forces such as our Naval 
forces and Air forces there.
    The Chairman. Thank you very much. Ranking Member Smith.
    Mr. Smith. Thank you. Admiral, give us a little bit of a 
look at the repositioning of troops between Okinawa, Guam, 
mainland Japan and Hawaii. And I was particularly concerned 
with how it impacts Guam and when those plans are going to be 
finalized, and how you see us resolving the continuing 
difficulty on Okinawa in terms of how we place Marine Corps 
base there, trying to shut down Futenma but we can't find a new 
place. How do you see that coming out? The sooner we can figure 
it out the better for all involved, but certainly for Guam and 
particularly to understanding exactly what they are going to 
have. Just give us a little bit of a preview on what is 
happening with that.
    Admiral Willard. As you know, we are still in discussions 
with the Japanese on this. We have working groups on both sides 
that are attempting to finalize plans for the 8,000 or so 
marines that we committed in 2006 to redistribute from Okinawa. 
And you refer to a Futenma replacement facility, the air field 
that actually contains the rotary wing lift for the marines 
that are currently on Okinawa and, as a separate issue within 
the Defense Policy Review Initiative, the shift of the location 
of that airfield from the urban area in Okinawa to Camp Schwab, 
an area further north on the island.
    In the past within the Defense Policy Review Initiative, 
DPRI, the two were linked together, FRF, the Futenma 
Replacement Facility, and the movement of the 8,000 marines. 
One of the agreements between Japan and the United States 
recently was to delink the two so that the challenges, the 
policy challenges that have been posed that have caused delays 
and the Futenma replacement facility could be dealt with 
separate from the issues of Guam and other sites for our Marine 
Corps. And at the same time, the Marine Corps, Secretary 
Panetta and U.S. Pacific Command, in the course of 
deliberations of optimum sites for our marines, given both the 
economic environment that we are in and the specific strategic 
needs of U.S. Pacific Command in the region to have those 
marines sited properly, have been working on the distribution 
of both the headquarters elements from Okinawa and the marine 
troops from Okinawa and where they should be located. And 
presently the view is for about 4,700 marines to be located on 
the island of Guam and others to be distributed to sites such 
as Hawaii and, as you know, a rotational presence out of 
Darwin, Australia. Those combinations are part of the ongoing 
working group deliberations with Japan and the United States.
    There is a way to go with it and the Futenma replacement 
facility issue has resulted in strong advocacy by Tokyo, by the 
governance there, and continued challenges locally in Okinawa. 
And we think that Camp Schwab remains the best option. The 
Government of Japan appears to sanction that. We will continue 
the deliberations with them and attempt to see progress made 
over the coming year.
    Mr. Smith. Thank you very much, Admiral. Thank you.
    The Chairman. We are well into the first vote. Looks like 
there is going to be five votes. What I am going to do is call 
on Mr. Bartlett and then we will resume questioning as we 
return back from the vote.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much. Admiral, thank you very 
much for your long years of service to our country. For several 
years now I have been watching a global phenomenon that could 
enormously affect your area of responsibility and I wanted to 
get your insights into it. The United States has only 2 percent 
of the known reserves of oil in the world. We use 25 percent of 
the world's oil. China has even on its mainland less oil than 
we have. They do not yet use as much as we. But last year they 
bought more automobiles than we bought in this country so their 
use of oil is increasing.
    China is very aggressively buying oil all over the world. 
While we are an enormously larger user of oil than China, we 
are buying oil reserves nowhere in the world. And I am 
wondering why you think China is buying oil reserves all over 
the world. Sir, it doesn't make any difference today who owns 
the oil, the person who comes with the dollars, and let's hope 
it stays dollars, who comes with the dollars to the global oil 
auction gets the oil they need. Why would we not be buying oil 
when China is very aggressively buying reserves of oil all over 
the world?
    Admiral Willard. Congressman Bartlett, I can't speak to 
U.S. rationale for its oil energy policies in their entirety. I 
would certainly direct you to the Department of Energy to 
answer that question, but I would offer to your point China is 
very much interested in energy sources globally, as is India. 
We have more than one nation, as you know, in the Asia-Pacific 
region that are both industrial, growing, expanding economies 
and very much interested in energy resources worldwide. Energy 
security is a concern of the United States Pacific Command; 
both the security of the energy as it moves around the world 
and the potential disputes that challenges and competition over 
energy could generate. And so we pay a great deal of attention 
to the issues in regions such as the South China Sea and 
emerging regions in the Indian Ocean where energy is being 
tapped. And again to your point, there is great competition for 
this; China, India, Japan and others very much concerned about 
their access to energy and their ability to secure it globally.
    Mr. Bartlett. At the same time that China is buying oil 
reserves all over the world, they are very aggressively, as you 
know, sir, building a blue water navy. They don't really need a 
blue water navy if they are only interested in protecting their 
shores, do they? Won't a brown water navy do just fine there?
    Admiral Willard. The Chinese have been fairly clear in 
their desire to not only have a navy that can project itself 
within the region immediately surrounding China, but also be 
influential enough to both protect its interests and contribute 
to global security concerns elsewhere beyond the first island 
chain region and out into the Pacific as well as in the Indian 
Ocean. As you know, they have committed now for several years 
to counter piracy operations off the Gulf of Aden. I think that 
their focus is on sea lines of communication that they consider 
to be vital to their commerce and to their economy.
    Mr. Bartlett. They have 1,300,000 people, 900 million of 
them in rural areas that through the miracle of communications 
know the advantages of industrialized economy, and they are 
saying, Hey, guys, what about us?
    Do you think that there is a possibility that with their 
need to satisfy the needs of this huge population that the time 
would come and they would say, Hey, guys, I am sorry but we own 
the oil and we can't share it? Wouldn't that require a big blue 
water navy to make sure they control the sea lanes so that they 
could absolutely certify that the oil was theirs and they would 
not need to share it with the rest of the world?
    Admiral Willard. Again, I think China's view of the need 
for a blue water navy as they see their economy expand and 
their great power status establish itself, they would reflect 
on other great economies and great powers and the use of navies 
and other arms of their military to secure and protect what is 
theirs.
    I wouldn't speculate that China has designs on challenging 
the rest of the world with regard to what is on the waterways. 
In fact our military-to-military engagement with China is aimed 
at both learning to coexist with their military and also 
ensuring that at the end they are a constructive contributor to 
global security and not an impediment to it. So I would have a 
more optimistic view of the trends with regard to the PLA-Navy 
and what their goals are. We don't believe that their goals are 
to challenge other nations' access to energy or other commerce 
but rather to secure their own.
    Mr. Bartlett. Thank you, sir. I hope you are right.
    The Chairman. Thank you. We will recess now for votes. We 
will return back as soon as the votes are done.
    [Recess.]
    The Chairman. Thank you for your patience. The committee 
will come to order.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and, Admiral Willard, 
thank you so much for all of your service, all of these years. 
You have so many great experiences and reflections I am sure. 
If I get through my questions I want to ask you to give 
Congress a word of advice, if you might, from what you have 
seen in the give and take, and it doesn't all have to be 
positive. I want you to go out on a limb a little bit since you 
are retiring. Okay?
    The first question I wanted to ask you was about the 
retiring seven cruisers. And I understand that we sometimes get 
about 35 years of service, most of these have 20, I know that 
some are in a state of disrepair that they don't want to move 
forward with, but on the other hand there is a concern about 
that. Do you share that? And what does it take to bring them 
back to service if in fact we do retire them?
    Admiral Willard. Thank you, a great question. In my 
previous assignment I was a Pacific fleet commander and I spent 
a considerable amount of time worrying over life cycle 
maintenance and challenges associated with our surface ship 
Navy. And I have had the discussions fairly recently with our 
Chief of Naval Operations with regard to his plans and the 30-
year shipbuilding plan in order to produce enough ships to be 
able to accommodate our security needs throughout the world. 
And as was mentioned earlier, as a combatant commander and 
especially one in a maritime area such as the Asia-Pacific, a 
quantity of surface ships has a quality all its own. And there 
is time distance factors in this area of responsibility that 
are unique in the world.
    The overall ship count in my view matters, but matters less 
than what we do with those ships when we have them. And the 
Chief of Naval Operations I think would attest that his plan 
calls for a gradual increase in our ship count, but that it 
won't occur in the next several years, it occurs beyond that as 
a consequence of some of the decommissionings and retirements 
that are ongoing.
    So the short answer is, am I concerned? We are always 
concerned about the number of ships and type model series of 
ships to meet our needs throughout the world. I have been well 
served both as a Pacific fleet commander and now as a Pacific 
Command commander that the forward-deployed Naval force and the 
other Naval forces concentrated in San Diego and Pearl Harbor 
and forward in Guam have been adequate to serve our presence 
needs in the region. I am confident that given the priorities 
that President Obama has established and that Secretary Panetta 
has very much supported, the Asia-Pacific will continue to get 
the number of and type of surface ships that it needs.
    We will still have, I think, a little over 80 Aegis ships 
that will continue to serve our Navy. And I know a lot about 
the life cycle challenges that the Chief of Naval Operations 
faces and his need to retire some of these ships earlier than 
the ideal life cycle would have called for. But I think he does 
that eyes wide open. He does that knowing that eventually we 
will recover from this.
    Mrs. Davis. Are they sometimes brought back?
    Admiral Willard. They are sometimes brought back. I guess 
the most notable example would be our battleships that were 
retired after World War II and some of those were recovered, 
recommissioned four times in the course of my career. Actually 
as they were brought back into service for varying conflicts 
and at varying times when we were in buildup periods within our 
Navy. So it is possible to reconstitute the ships that we 
retire and we can actually put ships into lay-up status in a 
decommissioned status at varying levels so that we can bring 
them back quicker. Sometimes they take longer.
    Mrs. Davis. Thank you, Admiral. I just wanted to say at the 
onset that San Diego is very proud to play the critical role 
they are playing now in the Pacific, and I think we anticipate 
being able to do that. We are not moving and neither is the 
Navy. So we appreciate that very much.
    My time is up. I just want to, on personnel issues with 
families do you see particular challenges that families and 
personnel have in the Pacific that you would like to address? 
And you can do that with me at another time if you would like.
    Admiral Willard. Yes.
    The Chairman. The gentlelady's time has expired if you 
could respond to her for the record, please.
    [The information referred to can be found in the Appendix 
on page 65.]
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And Admiral, we do 
thank you for your service. We are going to miss you a great 
deal as you retire, but we thank you for all that you have 
done. This is probably one of the most delicate parts of your 
job in coming in here and testifying and knowing what you can 
say and what you can't say. But I know that when we established 
our network of bases in the region we did so partly to ensure 
that we would never have to fight our way in again. And the 
question I would ask you is what would be the impact on your 
ability to perform the duties that you need to perform if we 
were to bring especially the marines back on to the continental 
United States? Because you know we have a lot of voices that 
say we ought to no longer have them forward deployed.
    And the second thing is how much is it going to impact you 
if we do away with the prepositioned stocks that we have been 
having in the Pacific?
    The third thing, I hate to give you three, but the third 
one is, I am concerned, like you said, sometimes numbers start 
becoming a serious thing in and of themselves. How do you see 
the comparison between the number of subs we are going to have 
and the number of subs the Chinese will have over the next 8-
year period in the Pacific?
    Admiral Willard. Thank you. Should the marines be withdrawn 
from their period presence in the Pacific to Garrison in the 
United States, it would be very impacting to the United States 
Pacific Command. The marines that are located in Okinawa now on 
paper, about 18,000 strong--they have been decremented over the 
course of the wars to 13,000 or so--are generally our first 
responders in the region, disaster response. We respond to 
natural disasters in the Asia-Pacific region on the average of 
once every 8 weeks. Most recently we were in Thailand and the 
marines were in Thailand to handle some of the deflooding, some 
of the flooding challenges that they had when Thailand 
experienced the worst flooding in 50 years. And a year ago 
nearly today when Japan had its epic series of disasters, the 
3rd Marine Expeditionary Force commander himself and the 
marines deployed immediately to northern Honshu to assist the 
Japanese ground forces in the recovery efforts following the 
tsunami and earthquake, continued earthquake series that 
occurred there.
    Our marines are part of every contingency plan that we 
have. And when you consider the time-distance factors in the 
Pacific, the largest ocean in the world, it is very important 
that we maintain the posture and presence forward that we do. 
In fact I was asked, have been asked many times what is most 
important to you, and it is the forward presence within the 
Asia-Pacific simply because of the time-distance challenges 
that we face there and being able to be responsive as flexible 
as we need to be.
    And I guess the last point I would make is our marines, our 
ground forces, the nations in the Asia-Pacific, even those that 
are some of the largest archipelagos in the world, like 
Indonesia, and Philippines, and even Japan, have militaries 
that are generally ground force centric, they are army centric, 
surprisingly. And the ground forces are a major tool for 
engagement and capacity building within these nations and our 
marines play a special role in that. So their forward presence 
to me is very, very vital.
    Mr. Forbes. How about prepositioned stocks?
    Admiral Willard. Prepositioned stocks, not just servicing 
our marines but servicing virtually any contingency in the 
area? Again very, very vital. I know that there have been 
discussions with regard to putting some of our prepositioned 
stocks into a lesser readiness status. Fortunately there is no 
plan to do that with our prepositioned stocks in Guam or Diego 
Garcia, and they are vital to me as well. So the prepositioned 
stocks are necessary in our contingency planning but they are 
also a source that we exercise with our marines on a frequent 
basis to ensure that we know how to use them correctly.
    Mr. Forbes. I only have 20 seconds left. Can you hit me 
with your forecast of where we are going to match up over the 
next 8, 10 years with our subs versus what you see happening 
with China in the Pacific?
    Admiral Willard. Submarine activity in China, the growth in 
both capability and capacity has been impressive to watch in 
the submarine force. And our submarines fortunately are biased 
60 percent in the Pacific and that is very helpful. So it is 
necessary, I think, that the United States maintain a 
substantial submarine force in the Pacific and the forward 
presence of our submarines as well in order to contend with all 
the challenges that we face there and the submarine community 
contributes to a lot of what we do.
    The Chairman. Thank you. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Admiral Willard, 
thank you for appearing before this subcommittee today and for 
your many years of service to our Nation. As the chairman has 
mentioned and you mentioned yourself this morning, this will be 
your last appearance in a policy hearing before this committee 
as you will be retiring later this year. With that in mind, I 
just want to thank you again for your nearly 40 years of 
service to this country and to the sacrifices that you have 
made to ensure that we continue to have those freedoms that we 
all enjoy and that so many take for granted. You have our most 
sincere gratitude.
    I would like to start, really to continue on with the 
discussion that my colleague Mr. Forbes just raised with the 
future of Naval assets. With the coming focus, added focus and 
the pivot to the Asia-Pacific region and China's continued 
investments in power projection and A2/AD [anti access area 
denial] capabilities, can you speak to the future utilization 
of our submarine force? Specifically, can you discuss the need 
for the capabilities offered by the Virginia class submarines 
and the future challenges presented by a declining submarine 
fleet size?
    Admiral Willard. First, I don't think there is a question 
that the United States possesses the finest submarine force the 
world has ever seen. And I have every confidence in our 
submarines in the Pacific and anywhere else in the world that 
they can perform the job that they perform and the very quiet 
way that they go about achieving that. So we rely on our 
submarines greatly for a great many things. They are 
multimission capable assets and we employ them globally, and 
again they serve to secure the Pacific in every way.
    The Virginia class submarine is our newest, most 
formidable, and provides increased capacities in some cases 
that we very much need. I am not prejudiced because my wife has 
sponsored one. I would offer that the Virginia class subs are 
the best submarine the world has probably ever seen. And that 
is not to take away from the great service our Los Angeles 
class have performed. They have done remarkably well and they 
continue to perform remarkably well across our oceans.
    Submarines happen to be an area where there is a 
proliferation in this part of the naval forces throughout the 
Asia-Pacific. Vietnam is acquiring additional submarines, the 
Japanese are acquiring submarines, Malaysia recently acquired 
submarines, Indonesia has designs on increasing its submarine 
fleet. India just took possession of a Russian submarine that 
is very capable. So we see the submarine forces in the region 
themselves proliferating, not to mention China's advancing 
submarine capability.
    It is important that the submarine forces among our allies 
and partners are coordinated with our own efforts, and again I 
think we establish a pretty good benchmark for everyone to 
consider in terms of how to professionally employ that 
particular asset. Great boats.
    Mr. Langevin. Thank you. With regard to cyber security, 
which I focus a great deal on, I believe that we can no longer 
expect to have a single domain conflict. I am pleased that you 
mentioned that several times this morning, obviously it is on 
your radar, and you realize what a challenge we face in that 
area. And quite frankly, the low barriers to entry into the 
cyber arena means that any future conflict will have a cyber 
dimension. To that end I am very concerned about the 
capabilities of our basis to withstand a cyber attack directed 
against outside supporting infrastructure. So much is owned and 
operated by the private sector which we don't control, such as 
the electric grid. And I have had conversations with Secretary 
Panetta, General Dempsey, Secretary Mabus, Admiral Greenert, 
and many others before this committee about the resilience in 
the face of such a threat. Have you examined the ability of our 
bases in PACOM's AOR [Area of Responsibility] to operate and 
recover in the event of such an attack? Do you feel that our 
bases and networks are adequately resourced in the cyber domain 
and have the resilience to support full spectrum operations in 
the face of coordinated A2/AD [Anti-Access/Area Denial] cyber 
threats?
    Admiral Willard. I have examined it. I think 
vulnerabilities exist and I am as concerned as you are with 
regard to the cyber threat. I think it threatens not only 
infrastructure broadly across the United States and elsewhere 
in the region among our allies and partners as well, but it 
also challenges every day my command and control capabilities 
in the region, whether that is to the bases or to the forces 
that are afloat or flying themselves. Cyberspace of all the 
domains is probably the most broadly challenged right now and 
most in need of very strong governance and the necessary 
authorities to defend it both passively and actively.
    I think Cyber Command was a great initiative on the part of 
the United States. I work very closely with Keith Alexander. We 
are conducting a year long pilot in the Pacific right now 
trying to advance our cyber defense capabilities and we will 
continue to do that. We have done that for several years, and I 
think we are making progress. But across domains, I am 
concerned about the maritime certainly in the region, I am 
concerned about space, I think I am concerned about cyberspace 
most of all.
    Mr. Langevin. Thank you again.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. Thank you, Admiral, 
very much for being here. My father served with the 14th Air 
Force, the Flying Tigers, in India and China. And so, as you 
know, military service impacts your whole family. And so I grew 
up with a real understanding and appreciation of how 
hardworking and capable the people of India and China are. It 
has been really good to see the developing relationship with 
India. Because of my dad's service I became the chairman of the 
India Caucus. So I have seen a relationship develop between our 
countries. What is the status of the partnership with India?
    Admiral Willard. Thank you, great question, and thank you 
for bringing India up and South Asia as a very important 
subregion within the Asia-Pacific.
    The relationship with India is strong and growing stronger. 
It is not without its challenges. We don't have a great, a long 
history between the countries, as you know. We went through a 
cold war without much of a relationship at all and following 
the nuclear tests in the late 1990s, we suspended relations 
government-to-government. So we have really only been 
acquainted with India in the past decade. And mil-to-mil we 
began at a pretty nascent stage and have progressed to the 
point that today we exercise with India across all the 
Services. It is one of the most significant security assistance 
programs that we have in the Asia-Pacific theater right now. I 
think government-to-government the United States and India have 
made great progress. And I have had the opportunity to be 
introduced into India's senior leadership and they are very 
interested in an ongoing relationship with the United States.
    At the same time they pride themselves in what they term 
strategic autonomy, kind of a nonalliance philosophy. And as a 
consequence of that, we are challenged in the relationship by 
virtue of India seeking to balance its associations with many 
other nations as well. We are challenged in our relationship 
with Pakistan as a consequence of the animosity that has 
existed historically between India and Pakistan. And India is 
in a very challenged part of the world, as we all know, with 
Afghanistan close by, Pakistan is a neighbor, the Kashmir issue 
which has persisted for a long time, and disputed border 
between India and China. So there are a lot of issues on the 
plate and we are seeking to continue to dialogue with India, 
terror being one of them, and try to improve the relations 
where we can.
    Mr. Wilson. I was grateful to be in Islamabad last week 
during the same time that the Speaker of the Indian Parliament 
of all things was visiting. And so to see the relationship and 
trade has resumed between India and Pakistan and to me a stable 
Pakistan, the greatest beneficiary would be India. So I hope 
that is the case. In fact too they have a joint enemy, that is 
LeT. And of course LeT led the murderous assault on Mumbai.
    What efforts are being made to counteract that level of 
terrorism?
    Admiral Willard. Yeah, thank you. We have currently special 
forces assist teams, Pacific assist teams is the term, laid 
down in Nepal, Bangladesh, Sri Lanka, Maldives as well as 
India, and we are working very closely with India with regard 
to their counterterrorism capabilities. And in particular on 
the maritime domain, but also government-to-government, not 
necessarily DOD but other agencies assisting them in terms of 
their internal counter terror and counter insurgency. Lashkar-
e-Taiba is very dangerous, Pakistani based, very good 
operational security, and a lot of international design in 
terms of their aspirations. So it is a very important threat 
and we are working very closely with the nations in the region 
to help contain it.
    Mr. Wilson. That is really very positive. Another positive 
spot is Palau and the strategic significance of Palau with the 
territory of Guam that we appreciate so much. For America what 
are we doing working with Palau?
    Admiral Willard. We just changed over the small team of 
engineers that we maintain in Palau on a continual basis. I 
think our Army engineers just turned over with Navy Seabees in 
a ceremony in the region. Palau is one of our compact 
association states. There are three, the Federated States of 
Micronesia, Palau, and the Marshall Islands. Strategically the 
three provide a southern flank to Guam which is obviously a 
very strategic territory of the United States. I am obligated 
to defend the compact states, and we work closely with the 
compact states on many of their challenges. Small teams of 
engineers is one method of doing that, but we also frequently 
visit with Pacific partnership and Pacific angel, the hospital 
ship, and provide engineering, veterinary and medical services 
where we can.
    Mr. Wilson. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Admiral 
Willard, thank you for your dedicated service and your 
testimony today, and I know this will be one of your last times 
before Congress. I want to take this opportunity to thank you 
and your wife Donna for the services to our country. I think 
you are the Navy's number one team.
    Admiral Willard. Thank you.
    Ms. Bordallo. As you know, the realignment of marines from 
Guam to Okinawa has recently undergone significant changes. And 
I appreciate DOD's recent efforts to address local concerns 
about the rotational forces. However, I do remain concerned 
that this decision was driven primarily by concerns raised in 
the Senate, not this committee, as well as budgetary 
considerations.
    Can you elaborate on the strategic rationale for these 
proposed changes? Aren't we just potentially shifting costs 
from MILCON [Military Construction] over to O&M [Operations and 
Maintenance] accounts over the long term?
    Admiral Willard. I have been part of the Global Posture 
Review by the Department of Defense over the course of the last 
couple of years. Former Secretary of Defense Bob Gates, as you 
recall, called for that review following the last Quadrennial 
Defense Review. And the posture review has been a hard look at 
where United States Pacific Command forces are.
    Notwithstanding defense policy review initiative with 
Japan, but where they are broadly. And there was a strong 
desire to balance the forces more effectively in Southeast Asia 
and South Asia. Right now as you know, all of the permanent 
forces, with the exception of those in Guam and those in 
Singapore, are by and large in Northeast Asia. Whether or not 
they are permanently based or rotational forces is 
inconsequential, frankly, to me. I can work with either one. 
There are benefits to both.
    In general, when we think of our foreign partners and their 
appetite for permanent bases, there isn't one. So rotational 
force presence, for example in Darwin, Australia, I think will 
be very effective.
    What is most important to me is that the forces that we 
have present in Guam and elsewhere are maintained at a 
readiness level where they can be the first responders in the 
region so they have to dwell there long enough to be trained 
and exercised and equipped, resourced and engaging on a fairly 
continuous basis.
    So the duration with which they are present in Guam matters 
to me. And the work, the ability to lift those marines or other 
forces where they can do the most good matters to me as well.
    Ms. Bordallo. Thank you, Admiral. The next question I have 
is last year General Dunford testified before the Readiness 
Subcommittee that it would take seven consecutive miracles to 
move marines from CONUS [Continental United States] to respond 
to contingencies or operational plans in PACOM AOR if portions 
of the III MEF [Marine Expeditionary Forces] were based in 
CONUS. Now, do you share this view and could you elaborate on 
some of the strategic considerations why III MEF, Marine 
Expeditionary Forces, need to remain in the PACOM AOR?
    Admiral Willard. Well, the Pacific Command AOR, just as a 
review, extends from the West Coast of the United States to a 
dividing line between India and Pakistan. But the fact that it 
covers half the world and that the Asia-Pacific theater extends 
entirely across the Pacific Ocean, the strategic imperative 
that the marines be forward and present exists. In fact that is 
true for all the Service forces.
    So the fact that we have Army, Navy, Air Force, Marine 
Corps, and Special Operations Forces readily accessible, 
forward and present in the Asia-Pacific, very crucial because 
of the lift requirements at great expense and time to cover the 
distances involved in bringing them from garrison in the United 
States. So very, very important strategically to Pacific 
Command that the forces are forward and accessible.
    And we talk about forces beyond the international dateline. 
Frankly, I think the forces that are located in Hawaii are 
strategic in terms of their ability to respond into the region. 
But forces on the West Coast become more problematic simply 
because they have to be mobilized and moved such a great 
distance.
    Ms. Bordallo. Thank you. Thank you, Admiral, and again 
thank you for your service to our country.
    The Chairman. Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Admiral, thank you for 
your service and certainly your distinguished career.
    I chair the Strategic Forces subcommittee so as you go from 
that subcommittee we have nuclear weapons, missiles, missile 
defense, space--several areas that overlap within your area of 
expertise. I have three questions. Two I am going to lump 
together, even though they are not similar. The two I lump 
together I know you can provide an answer as your perspective 
on these occurrences.
    Secretary Gates referenced when he was at the Shangri-la 
conference in June of 2011 a potential new North Korea mobile 
intercontinental ballistic missile. He said: With the continued 
developments of long-range missiles and potentially a road-
mobile intercontinental ballistic missile and their continued 
development of nuclear weapons, North Korea is in the process 
of becoming a direct threat to the United States.
    Admiral, I would like your thoughts on the development by 
North Korea of this ballistic missile technology, a road-mobile 
intercontinental ballistic missile, and your thoughts on what 
must be done to counter such a threat.
    And then secondly, our subcommittee held a hearing last 
year on Russian and Chinese nuclear weapons modernization 
programs. And one hearing that I had I think was the first 
actually in Congress to discuss a report authored by Dr. Phil 
Karber, and the report detailed an unclassified report of the 
existence of a large Chinese tunneling program, perhaps 5,000 
kilometers of tunnels. In fact, the tunneling seems to have 
doubled from 25 kilometers to 5,000 kilometers in the past 20 
years.
    Would you please discuss why you believe China is racing to 
construct these elaborate underground facilities and what are 
they trying to protect, hold at risk? How many of these tunnels 
are we able to hold at risk with our U.S. nuclear weapons 
technology? What do you propose or suppose the tunnel's purpose 
is, Admiral?
    Admiral Willard. Thank you, Congressman. First on the issue 
of road-mobile, as you know we are challenged by mobile missile 
systems. That is why they are created. I mean, holding mobile 
missile systems at risk is always problematic for any armed 
force and we are no exception.
    There is development within North Korea of a road-mobile 
intercontinental ballistic missile system that we have 
observed. We have not observed it being tested yet, to my 
knowledge, and we are watching the development very closely.
    The missile system is advertised to be significant in terms 
of its range capability, and I think it is something that we 
will continue to monitor very, very closely as it develops. And 
you know, what will it mean to us when it proves itself? There 
will be a decision made with regard to how we posture to deal 
with what could be something less predictable than Taepo Dong 
II or some of the other ballistic missile capabilities that are 
a little more easy to observe.
    Mr. Turner. Before we go on to China, as you just said, the 
ability to hold the missile at risk because it is mobile means 
I am presuming that there should be that much more of increased 
focus on defense, if this is a system that we should face in 
its use; is that correct?
    Admiral Willard. I think that is one of the posture options 
that will have to be considered, yes.
    Mr. Turner. And the Chinese tunnels?
    Admiral Willard. Many nations in the Asia-Pacific region 
utilize hardening of facilities in order to provide for their 
security, their defense. I would offer that North Korea is a 
prime example of this, where tunneling is very much a part of 
the defensive infrastructure in the--among the armed forces in 
North Korea with regard to their being hardened and defensible. 
We see it, frankly, in many locations. China, no exception. The 
tunneling activities associated with China's submarine force is 
very obvious and have been widely publicized.
    When we anticipate the purpose of that, the purpose of that 
is generally to provide both a hardened environment for the 
force structure that they utilize there, whatever that happens 
to be.
    Mr. Turner. Which you presume to be?
    Admiral Willard. I think we would take that into closed 
session and discuss it. But, again, there is the point of 
hardening. There is also the point of being able to move forces 
in tunnels, unobserved. So there are a variety of benefits that 
come from developing underground facilities to occupy the needs 
of the Armed Forces. And again, China is one example; there are 
many in the world.
    Mr. Turner. Thank you, Mr. Chairman. Thank you, Admiral.
    The Chairman. Thank you. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. And thank you, 
Admiral, for your incredible service to our country and to your 
spouse for standing with you.
    I have a question. As we move into an era of shrinkage in 
terms of our fleets, and we look at new ways to be innovative 
and efficient, I am told that there are ways in which we can 
transfer our troops from our large ships by keeping them in 
the--in place, rather than spending 6 months getting to where 
they are supposed to be serving their time there, and then 
spending 6 months returning to the United States for 
maintenance and repair. And in particular, there is a 
suggestion that has been made by a number of people who are 
fairly noteworthy, that we could basically fly in new troops to 
these destroyers and cruisers rather than have them moving 
across the waterways long distances that take as much as 6 
months. Do you have any thoughts on that?
    Admiral Willard. Being a sailor and having deployed 6 or 
more months many, many times, I certainly have an opinion on 
it. I think that--a couple of important things to note. First 
of all, the suggestion that we can fly in, fly out crews and 
locate a ship in a distant port has been experimented with in 
fairly recent times within the last decade. We have attempted 
to at least demonstrate the capability to do this. It comes at 
some expense. There are disadvantages to it. And one of the 
disadvantages is the ability of that ship to be brought back to 
a location where it can be maintained properly.
    So it is generally, if we talk about ships forward in 
Australia or ships forward in Singapore, there has to be a 
place to service those ships when they require it, in order to 
achieve the life cycle duration that we desire out of those 
ships. And there is the continuity associated with a crew 
manning a ship for a long period of time. So flying in, flying 
out crews is also a challenge that has to be overcome in that 
scenario.
    That said, one of the discussions that we are having 
regarding the overture that Singapore made to perhaps utilize 
Changi Naval Base for our littoral combat ships, one of the 
concepts for doing that would be a rotational presence of the 
ship's crew. So it is possible, it comes with advantages and 
disadvantages. It is not without cost. And I think there are 
times when it is appropriate.
    I think the rotational cycle that we have developed with 
the ships coming out of the major force concentration area, 
fleet concentration areas in the United States has been 
effective. And it is not as if we are not conducting business 
as soon as we leave port, I mean, whether it is training and 
exercise or whether it is the opportunity to touch many areas 
across the Pacific. The transit of ships is not without utility 
to me I guess is the way I would put it.
    Ms. Speier. So you are suggesting there is a cost 
associated to it. What I have been told is that you can do with 
3\1/2\ ships what normally takes 5 ships and you can actually 
see an efficiency of 40 percent. So I am a little confused as 
to whether there are cost savings here or costs associated with 
doing that.
    Admiral Willard. Well, there will be costs either way. Once 
again, the idea of rotating crews forward to man up a ship, 
leaving that ship in place, comes with its own dynamics in 
terms of how we manage that ship's maintenance cycles and so 
forth. So it is not without its challenges.
    What you are referring to is what it takes to maintain a 
single ship forward in terms of the cyclical nature of 
deployment, when we are conducting forward deployment. And 
typically it is about four to make one, to your point.
    I would again contend that there are advantages to that. 
One of the advantages is the ability to return the ship and 
return the crews to a home base and a level of continuity and 
maintenance continuity that advantages the ship. And it is not 
as if there is a point A, point B in this calculus. When ships 
transit the Pacific, we have them working the entire time they 
are in transit, whether it is in the southern Pacific, island 
nations, territorial areas, or whether it is forward in the 
western Pacific or whether it is in the Indian Ocean and 
Persian Gulf region. So----
    Ms. Speier. My time has expired.
    Admiral Willard. Ships that deploy are continually in work.
    Ms. Speier. Thank you. I yield back.
    The Chairman. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Admiral Willard, 
thank you so much for joining us today. I deeply appreciated 
you hosting our congressional delegation that visited the 
Pacific Command during the summertime. That was one of the most 
eye-opening and rewarding experiences of my service here in 
Congress. So I thank you. And thank you for your 39 years of 
service to our Nation and to our Navy. From being a squadron 
commander to carrier commander, to fleet command, to being part 
of what I think is one of the greatest movies ever made, that 
is an absolutely stellar career. We deeply, deeply appreciate 
it. It is an honor to have men such as yourself leading our All 
Volunteer Force.
    And Donna, thank you for your unlimited passion for our 
sailors and for our Navy and your commitment. You have been a 
stellar example of service and sacrifice to our Nation and to 
our military. So thank you so much. It is great to have such a 
great Navy family out there serving this Nation. So we deeply 
appreciate that.
    Admiral Willard. Thank you.
    Mr. Wittman. I wanted to ask this question. You had spoken 
about the new strategy in the Asia-Pacific. As we look at that, 
and we are looking at $487 billion in reductions to defense 
budgets, my question is this: Are you going to be able to 
achieve that new strategy with these reductions? And I think 
you are being asked to do an awful lot with a lot less.
    And if we look at what is happening, you look at the SCN 
[Shipbuilding and Conversion, Navy] Navy account being reduced, 
you look at the number of ships being reduced. You also see 
some decommissioning of ships before the end of their service 
lives. You see a number of programs being moved to the right, 
outside of the FYDP [Future Years Defense Program], the SSNs, 
we are going down 1 year to a single ship being built that 
year. The F-35, the SSBN(X). It seems like we are asking an 
awful lot.
    And my question is: In the Pacific Command, will there be 
the assets, the ships, the planes necessary for you to be able 
to carry out that mission? It seems like we are asking an awful 
lot with this big shift, but we are doing it in a time of some 
pretty severe reductions in resources. I want to get your 
perspective on how you see that unfolding.
    Admiral Willard. Thank you. First, Congressman, I think you 
characterize it very well. It should be a concern for all of us 
that the actions that we take with the fleet and with the other 
Service forces that we have are the right ones in accordance 
with a strategic design. I think that one of the real strengths 
of what President Obama and Secretary Panetta unfolded as a set 
of strategic priorities was to try and establish the places in 
the world that we felt from a security standpoint were of the 
greatest importance for our Nation, and I was pleased but not 
surprised that the Asia-Pacific was prominent in that 
discussion.
    What that means is that the commitment we are making is 
that we will put the forces into those highest priority regions 
that are required. And I think that is the answer to your 
question. I would anticipate that my successor will vocalize 
his requirements very clearly to the Pentagon and elsewhere, 
and that by and large these requirements will be met.
    I think in the Aegis we are challenged across the Services 
with regard to these budgets. And should, heaven forbid, 
sequestration or other very severe cuts take place, then I 
think the Department of Defense is going to be challenged to 
execute to these set of priorities. But I think the strength in 
the work that has been done is to try to establish a strategy 
whereby we can make the right decisions with regard to where 
the forces go.
    Mr. Wittman. I want to get a little bit of your perspective 
about things that are happening currently with China. As your 
great career as a naval aviator, you spent a lot of time in the 
Asia-Pacific. You also were there at a time when we watched the 
buildup in Russia through the seventies and eighties. We 
watched that Cold War scenario. We have seen that wane. You 
have also been a part of watching a buildup in China, an 
exertion of China's influence in that particular region.
    What do you see as the biggest challenge for us in the 
Asia-Pacific in years to come? And having that metric of the 
Russian buildup in the Cold War, where do you see the United 
States being 5 years, 10 years, 15 years down the road in the 
Asia-Pacific with what is currently happening in China and 
elsewhere, even in places like North Korea?
    Admiral Willard. Chairman McKeon talked about the more than 
$5 trillion of commerce, of which a sizable portion is U.S. 
commerce that is on the water in the South China Sea. As we 
look forward to our greatest challenges it is going to be the 
ability to coexist among all of the nations in the Asia-Pacific 
region, China being one of them. And right now, one of my 
daunting strategic challenges is to engage effectively with 
China and with the People's Liberation Army in order to be able 
to coexist and both contribute to the security of this region 
for its future prosperity.
    Mr. Wittman. Thank you.
    The Chairman. Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Hi, Admiral.
    Admiral Willard. Aloha.
    Ms. Hanabusa. Aloha. I was going to tell you the same 
thing. I won't repeat my colleagues, especially Congressman 
Wittman, but my mahalo to both you and Donna for everything 
that you have done. And I would like to add to that my mahalo 
on behalf of the people of the State of Hawaii. You have been 
absolutely great. You have embraced them and I think they have 
embraced the both of you right back.
    Having said that, Admiral, you know one of the things that 
we take for granted is munitions. Do you have any concerns 
regarding the DOD's current inventory of munitions?
    Admiral Willard. I do. The short answer is yes, I have 
concerns. When we look across our munitions inventories, 
notwithstanding what has been expended over the past 10 years, 
there exists gaps and shortfalls and insufficiencies in a 
variety of different areas. In the new strategic design in 
terms of priorities, there is emphasis on improving our missile 
defense capabilities, as one example, and our crew missile 
capability. So we think that there will be advances in some 
munitions inventories. But the short answer to do I have 
concerns? The answer is yes.
    When we talk about major operations, nation state level 
operations, there are munitions, acquisition production rates, 
and in some cases insufficiencies that we have got to overcome.
    Ms. Hanabusa. So how does that look in terms of the fiscal 
year 2013 budget request? Are we procuring a sufficient number 
of weapons to basically ensure you and other combatant 
commanders the sufficient numbers that you will need?
    Admiral Willard. We have spent the last couple of years 
articulating the munitions status very clearly into the 
Department of Defense. And I have had a good association with 
Deputy Under Secretary Carter and others with regard to 
determining what to do about some of the munitions challenges 
that we face.
    Again, the 2013 budget will improve some areas that we have 
regarded as critical in the past, specifically related to 
ballistic missile defense where the production rates of SM3s 
and other capabilities have been limited--and cruise missile 
inventories. There remain other areas in which we are 
challenged. And our responsibility has been and will continue 
to be to articulate those as clearly as we can so that the 
Services make the appropriate investments to try and overcome 
some of these shortfalls.
    Ms. Hanabusa. I guess in another conversation before you 
retire, we can see where those other areas are.
    Now, Admiral, we have had this discussion before, but I 
would like you to be able to walk us through. We talked about 
basically rotational bases and afloat. Now, we know kind of 
what that means, but can you use the remainder of this time to 
tell us what do you envision when we talk about rotational 
bases and we have basically service men afloat, especially 
since we are going to be forwarding them to areas where we 
don't have bases, traditional bases?
    Admiral, Willard. Thank you. When we talk about posture, we 
are generally talking about where we are either permanently 
based or where we are able to rotate from. So Hawaii is a 
permanent base for us. We have a fleet concentration area 
there. We have some very significant strategic assets, such as 
the shipyard there that we are able to operate from and we 
deploy and we employ the forces that are stationed in Hawaii.
    Elsewhere, such as the offering made by Singapore, 
Australia, in terms of the Darwin marines, and the discussions 
that we are currently having with the Philippines, may afford 
us opportunities to rotate forces--not fly, in fly out, but it 
is a term they use--but essentially bring forces forward, allow 
them to train and operate from those bases for a temporary 
period of time, and then replace them with other forces that 
will in turn rotate.
    So we have the responsibility to posture correctly. And 
then there is the presence requirement, which is entirely 
different. This is where day to day, the forces should be 
operating to engage with other countries to exercise or to be 
present to help secure the Asia-Pacific region.
    Ms. Hanabusa. So when we are talking about a rotational 
type of force and they are deploying from a particular area, 
like the Philippines or Darwin, are they envisioned to have--to 
live there for a period of time? To have actual quarters there?
    Admiral Willard. They have quarters there, yes. We do not 
anticipate that they will be taking their families there, so 
there is not a permanence to their presence there. They will 
dwell there to exercise with their Australian counterparts and 
eventually deploy into the region where we need them.
    Ms. Hanabusa. Thank you.
    The Chairman. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. And Admiral Willard, 
thank you for being here and thank you for your service to your 
country. I was on Chairman Wittman's CODEL [Congressional 
Delegation] to PACOM and I would have to say it was--I echo 
everything that he said. Eye opening. It was very professional. 
Your staff was wonderful. It was definitely a learning 
experience and also ratified a lot of the concerns I guess we 
pick up in our day-to-day job. But it elevated it to put it on 
our radar, and that is what Secretary Panetta and the President 
and their new defense strategy kind of echoes as well; that we 
are looking at emerging threats, we are looking at the security 
and safety and safe passage of our shipping lanes because of 
the commerce and the economies and the fragile alliances that 
are out there. And there is no way to separate America's 
national security from our economic security and vice versa.
    One of the things that I did pick up throughout--and many 
of my questions have already been answered--was talking to our 
friends in the Philippines, Japan, the Republic of Korea, was 
that they want to know what we were doing. They were looking to 
us for leadership. Not only just, you know, just the leadership 
that America has provided for hundreds of years, but of course 
they are wanting to know what our fiscal affairs are like and 
are we getting our house in order. Because my takeaway was that 
we have some very good friends over there, but at the end of 
the day they are worried about their personal security and 
stability of their nation and their sovereignty, and that if we 
had a reduction of force or we started doing some shifting back 
and forth, that these alliances could be put into jeopardy. 
Would you care to comment on that?
    Admiral Willard. I think you make great points. And our 
alliances and partnerships in the Asia-Pacific region are the 
great opportunities that exist there. And our current alliances 
with nations such as Japan and South Korea, the Philippines, 
Australia and Thailand, to name our allies, are very, very 
important to the overall security of the region. And to your 
point, there is a refrain there that expresses concern about 
the staying power of the United States, the commitment to the 
region which has been allayed, frankly, in the last couple of 
years because of the very strong commitment that this 
Administration and our various secretaries have made to the 
Asia-Pacific.
    But there is a concern, especially witnessing the economic 
situation that the United States finds itself in regarding our 
ability to sustain ourselves and be influential and continue to 
be a partner in the region, and I assure them that we will, and 
assure them that a presence--forward presence remains paramount 
to the United States.
    So I am frankly, you know, very pleased to see the emphasis 
that the Asia-Pacific has received in this strategic design by 
this administration and our Secretary. And I think it is vital 
to the region to take that message and then to see us back it 
up with the actions that we take.
    Mr. Palazzo. Well, if the opportunity comes up again to go 
back on a PACOM CODEL, Mr. Chairman, please put my name and Ms. 
Bordallo's on there too, I think she would like to go. Because 
we just touched the surface and we would like to learn a lot 
more about our assets over there.
    Now, knowing that this has become part of the emerging, 
possible emerging threats somewhere that we have to have on our 
radar, I am concerned that the Secretary and others, not just 
the Navy and the Army and other branches of Services, that 
their rhetoric is really not matching the reality or the level 
of concern that we may have in this region, because we are 
looking forward to the 30-year shipbuilding plan. Are we going 
to be at 313 ships, or is it going to be less than that? So we 
are all anxious to look at that.
    Are we going to have the resources and assets in the 
theater to address this? But it looks like we are going to be 
decommissioning ships decades before their useful lives are up. 
We are pushing new shipbuilding to the right. A lot of these 
things just do not make a lot of sense. We are saying there are 
future threats, but at the same time we are not going to 
address them currently. What do you see as your most important 
needs for the next 5 years?
    Admiral Willard. The sustainment of the force structure and 
forward presence of that force structure that we have enjoyed 
in the past, and the additions that will come out of the 
conclusion of the last two wars that have occurred. So there is 
a reconstitution that is ongoing, and certainly the capacities 
that the United States Armed Forces have are important to us. 
That they be biased appropriately into the Asia-Pacific region 
is very important to the Asia-Pacific Command.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. Admiral, good to see 
you, and thank you for hosting us a few months back, the small 
business panel, as part of this committee. We had a great set 
of visits out there, and appreciate the time out there.
    I have four questions. They are kind of all over the place. 
I will be quick with each one of them and if you could answer 
them one at a time. Can you characterize the relationship with 
Indonesia?
    Admiral Willard. Very strong, 140 or so activities annually 
with Indonesia. Very impressed, frankly, with President 
Yudhoyono and his democratic government and the progress that 
they have made, particularly in military reform. And we are 
reengaged with KOPASSUS [Indonesian Army Special Forces 
Command] at a pace, but nonetheless reengaged. They are 
effective in counterterrorism and they are reaching out to many 
countries but particularly to the United States.
    Mr. Larsen. Great. Second, we are shifting from P3s to P8s 
now, and Whidbey Island is part of that and Jacksonville is 
part of that. Can you just talk briefly about the role--what 
the P8s will be giving you versus moving from the P3s and what 
the P8s might give you in the Pacific Command?
    Admiral Willard. I think in general we get dwell from those 
assets that we haven't--that we just can't enjoy from an asset 
like the P3. So we are very much looking forward to the fact 
that this is a jet that can move quickly, and it is going to 
come with a great deal of capability.
    So the P8 will be a great addition in what is an inherently 
maritime area of responsibility. I have great use for them and 
we are very much looking forward to a P8 community out there.
    Mr. Larsen. Great. I think when you first sat down in my 
office when you first started as PACOM, we had this discussion 
about--PACOM had just started, or was in the middle of further 
discussions with the Government of Japan about ballistic 
missile defense and the operations of BMD [Ballistic Missile 
Defense], not necessarily the cooperation, but how it is going 
to be operating. Can you give an update on that?
    Admiral Willard. I think the Japanese have advanced 
greatly. We continue to team in this, as you would expect, very 
much, 7th Fleet with the Japanese self-defense force. Able to 
work ballistic missile defense scenarios into many of the 
exercises that we perform. I right now regard the Japanese as a 
very credible BMD force and continuing to grow in its 
capacities.
    Mr. Larsen. So any issues left over from the operational 
questions that existed because of the--it was embedded--the 
problem was embedded in the Japanese Constitution about self-
defense and whether or not we could fully operate BMD if we 
needed to if there was a fly-over--to fly over the islands.
    Admiral Willard. Thank you. I think these are manageable 
issues. What I have learned over the past 2\1/2\ years is that 
in working closely with the Japanese--and, frankly, their 
defense force appropriately brings their civilian oversight 
into the room frequently as we have these discussions--they 
have been very good about educating the Diet and others in the 
Ministry of Defense with regard to what it really takes to 
defend Japan. And as you know, I have that responsibility.
    So in the deliberations that we have with the Japanese 
joint staff and others in developing the concepts to cooperate 
in ballistic missile defense, I think there has grown a good 
understanding of the requirements to accomplish this. There 
continue to be constitutional limitations in what those 
Japanese defense forces can do, as you you know. But again I 
think in the way in which we have structured our tactics, 
techniques, and procedures we are able to work our way through 
those.
    Mr. Larsen. Okay. And finally, the last page of your 
testimony you discuss JPAC [Joint Personnel Accounting 
Command], specifically China, Burma, and DPRK [Democratic 
People's Republic of Korea]. Could you maybe briefly touch on 
maybe Burma, what next steps we are going to be taking to 
continue recovery operations there?
    Admiral Willard. We are going to move back into Burma--we 
have been there before, as you know--but looking very much 
forward to that opportunity. And with the level of cooperation 
that we have seen from the Burmese Government recently, the 
overtures that they have made and some of the reforms that they 
are committing themselves to, I think we will have less concern 
about the security of those forces when, in fact, they go in 
there. So the Personnel Accounting Command is very busy out in 
the Asia-Pacific and, frankly, globally right now, and ready to 
move back into the DPRK, to your point.
    Mr. Larsen. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Admiral, Ma'am, thank 
you for your service to our country. Admiral, I was glad to 
hear you say that China's goal, you thought, was to be a 
constructive contributor, if you will, to commerce and peace in 
the region. Did I understand that correctly?
    Admiral Willard. I think they would certainly assert that, 
and despite the challenges that we face and continue to 
endeavor to overcome, it is my hope as well.
    Mr. Scott. Could you speak to the cross-strait 
relationships between China and Taiwan? And I guess what you 
said is the first I have heard that, and certainly respect your 
opinion. But they keep approximately 1,500 missiles and rockets 
pointed at Taiwan which certainly would lead you to believe 
that maybe they weren't going to be such a constructive 
contributor, if you will, to peace in that region. Could you 
speak to that briefly?
    Admiral Willard. There is very impressive combat power 
across the strait on mainland China. Whether that is integrated 
air defense system, ballistic--offensive ballistic missile 
capabilities or force structure in their ports and airfields. 
It is very impressive. It has been there a long time now, 
several years, and has not diminished. They continue to improve 
the capability. So in terms of a balance of power, I mean, it 
is generally one-sided.
    The cross-strait relations have improved since President Ma 
was elected in 2008 and reelected just last year, we have 
witnessed improved relationships between mainland--the People's 
Republic of China and Taiwan. And we anticipate that will 
continue with President Ma's reelection. And we are encouraged 
by that, frankly.
    That said, the combat power, as you allude, is somewhat 
incongruous to those improved relations cross-strait. But as 
they improve their relationship economically and 
diplomatically, we think that it should lower the likelihood of 
coercion or conflict taking place.
    Mr. Scott. Thank you. And when I woke up this morning and 
saw the news, the comments about North Korea and our food aid 
in exchange for them stopping their nuclear programs, how 
optimistic should we be that there will be a long-term change, 
if you will, in the approach of North Korea's leadership 
towards nuclear weapons, if you will?
    Admiral Willard. First to clarify, in the ongoing 
negotiations that have been going on, there are discussions of 
food aid. There have been now for, by and large, the past year. 
And the United States has been engaged in discussions very 
recently with regard to quantities of food that we anticipate 
providing to North Korea on the humanitarian side. In the same 
discussion but a separate topic, has been the discussion of 
nuclearization and the efforts to verifiably denuclearize North 
Korea.
    We have a new--a new successor in North Korea, as you know, 
since Kim Jong-il passed. He passed on leadership to his 29-
year-old son, Kim Jong-un. We know something of him, not 
everything. We are observing closely the actions of the new 
administration in Pyongyang with regard to how they will deal 
with a variety of security and coercive strategy issues, 
nuclearization being one of them.
    And we are encouraged by the outcome of the talks that 
talked about the possibility of IAEA [International Atomic 
Energy Agency] being let back into Yongbyon [Nuclear Scientific 
Research Center] and the cessation of some of the activities, 
including ballistic missile development. But I think this is 
something that we need to watch very carefully, wait and see. 
In the past we have not seen much change out of what is now a 
third generation of leadership in Pyongyang.
    Mr. Scott. Hopeful, but not optimistic; Is that it?
    Admiral Willard. I think that is well said.
    Mr. Scott. Well, Admiral, with 10 seconds left to go, I 
represent Robins Air Force Base, home of the JSTARS [Joint 
Surveillance and Target Attack Radar System]. I know that they 
have flown many missions for you and I certainly would 
appreciate your support of that platform as we go forward.
    Admiral Willard. It is a brilliant platform and you 
certainly have my support.
    The Chairman. Thank you. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Admiral Willard thank 
you so much for your service to our country and your role as 
the commanding officer for U.S. Pacific Command. And I wish you 
the best in retirement, which will be coming up pretty soon.
    First, if I understand it right, we no longer have ground 
forces in the demilitarized zone between North and South Korea; 
is that correct?
    Admiral Willard. That is correct. We continue to--our 
United Nations commander, J.D. Thurman, General Thurman, 
continues to be responsible for the overall security across the 
DMZ [demilitarized zone] and maintenance of the armistice. But 
the forces that were previously forward on the DMZ have been 
relocated.
    Mr. Coffman. And is there a plan to give operational 
control to the South Korean military?
    Admiral Willard. In December 2015 is the currently 
scheduled date. As you will recall, the 2012 date passed and 
there was a delay. But right now, what we term operational 
control transition is scheduled to occur in December 2015.
    Mr. Coffman. And am I right to understand--I think we have 
28,000 U.S. military personnel, about that number----
    Admiral Willard. Roughly.
    Mr. Coffman [continuing]. In South Korea today?
    Admiral Willard. We do.
    Mr. Coffman. Now, is there still in place a plan for a 
multimillion-dollar military construction program to bring the 
families up, sort of as a program for tour normalization in 
South Korea? Where is that right now?
    Admiral Willard. Somewhat in suspension, I guess is the 
best way to term it. And J.D., I am sure when he testifies, 
will provide you the details on that. But looking at the number 
of families that currently reside in South Korea with their 
service member, I think J.D. recognizes that in this fiscal 
environment, completing tour normalization as it was originally 
scoped is probably not viable, and he is continuing now to look 
at it and dialogue with the Pentagon with regard to what he 
perceives to be the right mix of families and service members, 
both accompanied and unaccompanied, on the peninsula.
    Mr. Coffman. Do you know if they are having--one thing that 
the United States Army does versus the Marine Corps, and I 
served in both, is the Army tends to on some of its forward-
deployed units rotate individuals in and out of those units, 
whereas the United States Marine Corps rotates units at the 
battalion level in and out of the area of operation. So is the 
Army having a discussion to move to more of a rotational basis 
for forces as opposed to assigning individuals? Are you aware 
of any discussion like that?
    Admiral Willard. No, I am not, though there is an ongoing 
discussion with regard to the Army in the Asia-Pacific region 
writ large, and how, with a reconstituted ground force 
following the two wars, the Army intends to support my needs in 
the region.
    I would offer that the Army forces on the Korean peninsula, 
especially given the decisions that have been made recently 
with regard to tour normalization and us, you know, slowing or 
stopping this now, are the dominant ground force on the 
peninsula, where the marines are down in Okinawa, Japan.
    Mr. Coffman. Okay. After we reach--after we hand over 
operation and control to the South Koreans, if we are able to 
achieve that in 2015, are there any projections as to drawing 
down our forces at that point in time?
    Admiral Willard. There are not. Operational control is at 
the leadership level. And this is now to say that rather than 
the United States commanding the defense of the Republic of 
Korea in wartime, that the Republic of Korea themselves will 
command and the United States will be in support. So that 
28,000 or so ground forces that we have maintained on the 
peninsula throughout the period since the war and during 
armistice are intended to continue to support the defense of 
the Republic of Korea.
    Mr. Coffman. The South Koreans, as I understand it, are 
spending 2.7 percent of their gross domestic product, their 
GDP, on defense. The U.S. right now is about 4.7 percent. What 
kind of burden sharing--maybe you could get back to me because 
we are running out of time. I wonder if you all could get back 
to me, Admiral, as to what exactly the South Koreans are paying 
in terms to support our presence in the peninsula.
    Admiral Willard. We will provide those numbers to you.
    [The information referred to can be found in the Appendix 
on page 65.]
    Mr. Coffman. Thank you. I yield back.
    The Chairman. Admiral, Donna, once again on behalf of the 
entire committee, we thank you very much for your 39 years of 
service. Wish you all the best in the new venture that you will 
be embarking on shortly. And this committee stands adjourned.
    Admiral Willard. Thank you, Mr. Chairman. Thank you for 
your continued support for our Armed Forces.
    [Whereupon, at 12:12 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 1, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2012

=======================================================================


              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

  Fiscal Year 2013 National Defense Authorization Budget Request from 
                          U.S. Pacific Command

                             March 1, 2012

    Our economy and security has never been more dependent on 
our military, especially in the Asia-Pacific Region. The 
President's new strategy focuses on a so-called ``pivot to 
Asia-Pacific.'' While I don't question the critical importance 
of this theater, I am concerned that our forces may not be 
properly postured to support this shift.
    The Chief of Naval Operations has said that ship and 
aircraft deployments in the Pacific would remain at current 
levels. Over the next 5 years, we will cut 16 ships out of our 
new construction budget and retire 9 more. Further, our tanking 
and airlift capacity will be reduced, limiting our ability to 
project power and sustain our forces. This budget does not 
address reductions to our nuclear deterrent. But the 
Administration is reportedly contemplating unilateral 
reductions below New START levels. As you have discussed often 
with us, quantity does have a quality all its own--especially 
in a theater that covers half of the Earth's surface.
    We must be prepared to effectively respond with the needed 
manpower and assets. As I stated at last year's hearing, it is 
important our forces in the Pacific have the personnel, 
training, equipment, and the authorities they need to instill 
confidence in our allies, deter aggression, and remain ready to 
respond decisively to any contingency. It is not yet clear how 
the new strategy will meet these goals.
    Events in Asia can change rapidly, as we saw in December 
with the death of North Korean dictator Kim Jong-il. Alongside 
our South Korean allies, our forces must be ready to deter 
further North Korean provocations.
    China's growing influence creates concern for many of our 
regional allies. The balance of power across the Taiwan Straits 
continues to shift in the direction of Beijing. The South China 
Sea is a vital shipping lane through which more than 5 trillion 
dollars in trade pass each year. Deterring, delaying, or 
denying U.S. forces from operating along China's periphery is 
still a key goal of the People's Liberation Army. As China's 
military budget continues to grow annually by double digits, 
the PLA is focused on improving their capacities to counter 
U.S. military capabilities and exploit our weaknesses.
    We also see the growing threat of terrorism in region, as 
aims of certain groups like LeT [Lashkar-e-Tayyiba] expand 
beyond their traditional border disputes.
    In partnership with our allies and friends, our forces must 
stand ready to respond to unprovoked, hostile behavior and 
defend our regional allies and security interests. We look 
forward to your testimony shedding additional light on these 
matters and the range of security challenges we face in the 
Pacific.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

  Fiscal Year 2013 National Defense Authorization Budget Request from 
                          U.S. Pacific Command

                             March 1, 2012

    I would like to welcome Admiral Willard and thank him for 
making a long journey to be here with us today. I look forward 
to his expert testimony on a variety of important matters.
    Earlier this year, the President released the findings of a 
strategic review, which clearly articulated the global threat 
environment, and presented a broad strategy to address those 
threats moving forward. This strategic review appropriately 
places a renewed focus on the critically important Asia-Pacific 
region, a shift that will surely call for additional resources 
and an enhanced role for U.S. Pacific Command.
    The Asia-Pacific region is a vital region of the world that 
includes a number of important U.S. allies and partners. 
Without question, U.S. service men and women play a crucial 
role in maintaining these relationships and in promoting peace 
in the Pacific.
    Many of our partners in the regions are concerned about the 
recent rise of China. While I do not believe that a conflict 
with China is inevitable, we should continue to work to promote 
mutual interests, mitigate concerns, and perpetuate 
multilateral cooperation in the region. We should also continue 
to develop our security relationship with India and continue to 
strengthen existing relationships with partners such as Japan, 
South Korea, Australia, and Singapore.
    Transnational threats, such as violent extremism, cyber-
threats, and illicit trafficking in persons, narcotics, and 
weapons continue to menace the region. Disease, malnourishment, 
environmental degradation, resource scarcity, and natural 
disaster do as well. The more we can do to defuse tensions 
through cooperative efforts with our many allies and strategic 
partners in the region, the more we can help to realize the 
immense potential for growth in the region.
    The United States will continue to lead in the Pacific and 
to offer assurances through our forward military presence in 
the region, and the U.S. Pacific Command's flexible force 
posture will continue to be essential to surmounting security 
challenges now and in the future.
    While I believe that the defense budget provides PACOM with 
the resources necessary for securing our strategic objectives, 
I would like to remind the Committee that the defense budget is 
consistent with the Budget Control Act that was passed by 
Congress. Although I did not support passage of that law, many 
members of the House Armed Services Committee did. The 
Department of Defense submitted a budget that complies with 
congressionally mandated funding levels and that supports our 
strategic objectives.
    I look forward to receiving your testimony and to 
continuing our dialogue on these and other important issues. 
Thank you, Mr. Chairman.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 1, 2012

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS

    Admiral Willard. [The information was not available at the 
time of printing.] [See page 10.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MR. COFFMAN

    Admiral Willard. [The information was not available at the time of 
printing.] [See page 28.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 1, 2012

=======================================================================

      
                    QUESTION SUBMITTED BY MR. MCKEON

    Mr. McKeon. A recent report issued by the Congressional Research 
Service points out that China has repeatedly suspended its mil-to-mil 
contacts with the United States as a retaliatory measure for various 
U.S. actions. It also describes the limitations of those relationships. 
The report does not suggest suspending mil-to-mil contacts, but what is 
your opinion on ways to improve them? Does the U.S. get as much benefit 
from mil-to-mil contacts with the PLA as they do? Are there different 
approaches that we could take to improve the value of those contacts?
    Admiral Willard. The Department of Defense conducts mil-to-mil 
contacts with the PLA because we believe such contacts help build a 
cooperative capacity to address common security challenges, foster 
institutional understanding of each others' military doctrines and 
intentions, and build a common view of the international security 
environment. The PLA continues to suspend mil-mil contacts as a means 
to express displeasure for various U.S. actions that run contrary to 
PRC interests, a practice which indicates the PLA places less value on 
a sustained, reliable, and continuous military-to-military relationship 
with the United States.
    One method of raising the value of mil-to-mil contacts is to 
increasingly conduct such contacts in a multi-lateral setting or to 
link bilateral mil-to-mil contacts with multi-lateral engagements where 
the PLA has an interest of increasing its level of participation. One 
of the greatest strengths of USPACOM's forward presence in the Asia-
Pacific region is that we are there at the invitation of our partners 
and allies, who hold a like-minded view of the security environment. By 
inviting the PLA to mil-to-mil engagements where our partners and 
allies already either co-host or actively participate makes it 
increasingly difficult for the PLA to regret without adversely 
impacting their relationships with those nations. The intent is to 
bring the PLA more frequently to the table, to demonstrate that it is 
better for the PLA to be a part of the conversation, rather than apart 
from the conversation.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. REYES
    Mr. Reyes. I understand that China is becoming more economically 
involved in both Central and South American countries. What visibility 
does PACOM have on these activities and what are your greatest concerns 
involving these actions?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Reyes. Since 2002, it appears that the activities and the 
numbers of the terrorist group Abu Sayyaf have decreased in the 
Philippines. What actions is PACOM taking in order to ensure that this 
group and others in the country are eradicated? Has there been an issue 
with drug trafficking out of the country in order to fund the terrorist 
groups? How are you engaging international partners on the terrorist 
groups in the area?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Reyes. What is the status of mil-to-mil engagements with China? 
How would you propose improving the value of such contacts?
    Admiral Willard. Although the Defense Consultative Talks took place 
in December (an institutionalized dialogue) there have been no other 
bilateral mil-to-mil engagements since last September. However, some 
engagement still takes place sporadically along the periphery through a 
multitude of multilateral, rather than bilateral, venues across the 
Pacific theater.
    When China's President, Xi Jinping, visited Washington in February 
and met with Secretary Panetta, the two sides agreed to move forward in 
developing the specifics of this year's program of military-to-military 
exchanges and also expressed support for an exchange of visits between 
Secretary Panetta and China's Minister of National Defense at an 
appropriate time.
    During the week of 26 March 2012, representatives from the 
Department of Defense and the Chinese military will hold discussions 
detailing the bilateral military-to-military engagement plan for 2012 
which will include Secretary Panetta's trip to China.
    One method of raising the value of mil-to-mil contacts is to 
increasingly conduct such contacts in a multi-lateral setting or to 
link bilateral mil-to-mil contacts with multi-lateral engagements where 
the PLA has an interest of increasing its level of participation. One 
of the greatest strengths of USPACOM's forward presence in the Asia-
Pacific region is that we are there at the invitation of our partners 
and allies, who hold a like-minded view of the security environment. By 
inviting the PLA to mil-to-mil engagements where our partners and 
allies already either co-host or actively participate, makes it 
increasingly difficult for the PLA to regret without adversely 
impacting their relationships with those nations. The intent is to 
bring the PLA more frequently to the table to demonstrate that it is 
better for the PLA to be a part of the conversation, rather than apart 
from the conversation.
    Military engagement can be valuable, but can only truly work if 
China is equally committed to open and regular exchanges that serve to 
enhance and deepen the mil-to-mil relationship. We should use military 
engagement with China as one of several means to demonstrate U.S. 
commitment to the security of the Asia-Pacific region, to encourage 
China to play a constructive role in the region and to press China to 
partner with the United States and our Asian Allies and Partners in 
addressing common security challenges.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. Given the limitations of the Harpoon, how would you 
assess the requirement for a new ASCM with greater range against other 
competing priorities?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Forbes. Despite describing the great potential of the UCLASS 
program in testimony for negating emergent A2/AD technologies, this 
program appears to be downgraded in the Navy's FY13 budget request and 
the FYDP. The UCLASS program was cut by $240 million this year and the 
limited operational capability (LOC) date is being delayed by two years 
from 2018 to 2020. Also, UCLASS was not mentioned as a key program for 
projecting power in contested areas in the Defense Budget Priorities 
and Choices document nor was it identified in the written testimony of 
Secretary Mabus as a capability the Navy is investing in to counter 
advanced A2/AD challenges. How important does PACOM consider the 
capabilities found in the UCLASS program for meeting its mission 
requirements?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Forbes. What are the challenges presented to U.S. Navy undersea 
dominance by the numerical growth and modernization of the PLA(N) 
submarine fleet over the next 8-10 years. What risk assessment has been 
conducted relative to contingency plans given PLA(N) submarine force 
structure projections versus the projected U.S. SSN shortfall in the 
2020-2030 timeframe? What mitigation strategies have been emplaced by 
the Commander to address the potential inequity in undersea warfare 
between the U.S. submarine force and the PLA(N) submarine force in the 
out years?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Yesterday the State Department announced that North 
Korea agreed to implement a moratorium on long-range missile launches, 
nuclear tests, and nuclear activities at Yongbyon, including enrichment 
in exchange for food aid. While I'm sure all of us here will continue 
to carefully examine all aspects of the security situation on the 
Korean peninsula, how do you expect this announcement to affect PACOM's 
security posture, if at all, as well as that of our regional allies?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Langevin. During your testimony you mentioned a yearlong cyber 
pilot with CYBERCOM to advance cyber capabilities in the Pacific. Could 
you elaborate more on the progress and goals of this pilot? How do you 
plan on integrating lessons learned into future operations and 
capabilities?
    Admiral Willard. 1. USPACOM established the Cyberspace Operations 
Command-Provisional (CYBERPAC-P) in February 2011 in order to bring 
together key PACOM stakeholders into a single entity for the 
synchronizing of cyberspace operations. With the pending approval of 
the Transitional Cyberspace CONOPS, CYBERPAC-P was renamed the 
Cyberspace Operations Center Pacific (CYBERPAC) to serve as the 
theater's Joint Cyber Center (JCC).
    2. CYBERPAC's mission is to plan and conduct theater cyberspace 
operations by synchronizing regional, national and allied cyberspace 
capabilities in support of USPACOM objectives in order to maintain 
freedom of action in cyberspace for U.S. Forces, our Partners, and 
Allies while denying the same to our adversaries.
    3. CYBERPAC's essential tasks include: a. Coordinate Theater DOD 
Global Information Grid Operations. b. Direct and coordinate Theater 
Defensive/Offensive Cyber Operations. c. Plan against designated 
cyberspace threats. d. Coordinate with Direct Reporting Units, Sub-
Unified Commands, and appropriate U.S. government agencies for 
cyberspace effects. e. Synchronize Cyber Operations with Allies and 
regional partners.
    4. As the Regional JCC, CYBERPAC continues to direct, coordinate 
and synchronize the planning and execution of regional cyberspace 
operations with USCYBERCOM, as the agent for global cyberspace 
operations. Over the past 13 months, the CYBERPAC has greatly enhanced 
PACOM's ability to integrate cyberspace operations into the full 
spectrum of operations and has emerged as the standard model for a 
regional JCC. Lessons learned and best practices continue to be 
integrated into the CYBERPAC construct through Tier 1 exercises and 
current contingency operations.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. In the discussion on the realignment the overall 
strategic imperatives of this move have not been adequately addressed. 
The key to these realignments is about strengthening our alliance with 
Japan. To that extent, what message are we sending the Japanese by 
utilizing U.S. Forces Japan as primarily a logistics and administrative 
function versus being an operational command like U.S. Forces Korea? 
U.S. Forces Japan did a tremendous job during Operation Tomodachi but 
how could the operation have been enhanced by an operational command 
based in Japan? If U.S. Forces Japan was being utilized as an 
operational command in every sense of the word, could they be assigned 
a mission of enhancing U.S.-Japan bi-lateral training?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Ms. Bordallo. Can you comment on your view of future Navy ship 
maintenance and repair requirements and capabilities required in the 
Western Pacific? In particular, do you foresee maintenance and repair 
requirements for submarines or the LCS on Guam?
    Admiral Willard. The current Submarine repair model for Guam will 
remain unchanged for the foreseeable future. As the number of Littoral 
Combat Ships home ported in the Pacific increases, more voyage repairs 
in support of Western Pacific deployments are likely. However, the 
support provided would be similar to that currently given to other Navy 
ships that transit in the vicinity of Guam.
    Ms. Bordallo. With the increased military presence ramping up in 
the Asia-Pacific region, I find it concerning that the Department of 
Defense is cutting critical resources in that particular AOR. A recent 
example is the Air Force announcing the divestiture of the Global Hawk 
block 30, of which there are currently 3 aircraft at Andersen Air Force 
Base. Do you feel that you will still have adequate ISR capabilities in 
the PACOM AOR if these 3 aircraft and potentially other assets are 
divested from the inventory? What risk are we currently facing with ISR 
capabilities in the PACOM AOR and what steps are being taken to 
mitigate that risk?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the current PACOM workforce construct reflect an 
appropriately balanced workforce between civilian, military and 
contract support across all major capabilities, functional areas, and 
requirements? Please support your response with workforce and cost data 
as required by statutes and policies.
    Admiral Willard. USPACOM's sourcing of functions and work between 
military, civilian and contracted services must be consistent with 
workload requirements, funding availability, readiness and management 
needs, as well as applicable laws and statutes. USPACOM's FY 2013 
budget requests, and associated civilian workforce reductions, reflect 
USPACOM's best judgment today. It represents a carefully coordinated 
approach based on the overall command strategy and policy, balancing 
operational needs and fiscal reality. USPACOM remains committed to 
meeting its statutory obligations to annually review missions, 
functions and workforce composition, including reliance on contracted 
services, and to ensure the USPACOM workforce is appropriately balanced 
and aligned to our most critical priorities.
    Ms. Bordallo. Did PACOM seek relief from DOD mandated civilian 
personnel levels in order to insource contracted work more cost-
effectively performed by civilians?
    Admiral Willard. USPACOM requested a SECDEF exception to the FY10 
civilian personnel cap for 38 contractor-to-civilian conversions in the 
FY12 program. The 38 conversions were determined to be exempt from 
private sector performance for readiness/management needs. These in-
sourcing actions were expected to result in net savings for USPACOM, as 
civilian performance has been estimated to be more cost-effective than 
contract performance.
    Ms. Bordallo. To what extent has PACOM used insourcing to reduce 
reliance on contractors, rebalance its workforce, and generate 
efficiencies?
    Admiral Willard. HQ USPACOM's current workforce percentages are 50% 
military, 34% civilian and 8% contractor with the remaining 8% as over-
hires and activated reservists. As a result of in-sourcing, USPACOM's 
rebalanced workforce has generated significant cost saving which is 
reflected in the USPACOM budget.
    Ms. Bordallo. Are you comfortable that all contracted services 
currently supporting PACOM are the most cost-effective and risk-averse 
source of labor?
    Admiral Willard. We have diligently scrutinized our contracted 
services and are convinced we have the right balance of support.
    Ms. Bordallo. What processes are in place within PACOM to ensure 
the workload associated with reductions being made in the civilian 
workforce is in fact ceasing, as opposed to being absorbed by other 
labor sources such as contractors or military personnel?
    Admiral Willard. The civilian workforce and associated fiscal 
funding reductions are being managed through a functional assessment of 
workload priorities. USPACOM tracks manpower authorizations, personnel 
and associated funding to manage workload requirements for military, 
civilians, activated reserves, USPACOM-funded contractors and civilian 
overhires for the current and future fiscal years. When civilian 
employees resign or retire, the vacant position is reviewed based on 
organizational assessments, prioritization of missions and functions, 
and the associated risk and degradation to USPACOM readiness.
    Ms. Bordallo. In the PACOM plan for direct labor reporting, signed 
by your Chief of Staff on November 21, 2011, and submitted to the 
congressional defense committees as part of the consolidated DOD plan, 
PACOM planned to incorporate manpower reporting language beginning 
October 1, 2011. How many contract actions have been executed with this 
requirement since October 1, 2011?
    Admiral Willard. No contracts, with this requirement, have been 
executed with this requirement since 1 October 2011.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates mandated. 
Please provide a detailed list of all exceptions PACOM has had approved 
to date and the reason for those exceptions, as well as any exceptions 
that were requested but not approved, and the justification for such.
    Admiral Willard. The SECDEF approved the conversion of 38 
contractors to civilian in the FY12 program which were previously 
approved and programmed in the FYDP. The 38 contractors consisted of 12 
at USPACOM Headquarters, 21 for Joint POW/MIA Accounting Command and 
five for Defense Intelligence Agency/USPACOM Joint Intelligence 
Operations Command. None of USPACOM's requests were disapproved.
    Ms. Bordallo. As efficiencies are being executed across PACOM, is 
the workload and functions associated with those being tracked as 
eliminated or divested through the annual inventory of functions?
    Admiral Willard. USPACOM submits an annual inventory of inherently 
governmental and commercial activity (IG/CA) inventory of all 
appropriated funded military and DOD funded civilian manpower 
authorizations, categorized as either inherently governmental or 
commercial activities. Workload and functions tied to military or 
civilian authorizations that have been eliminated or divested are 
tracked and reported in the IG/CA inventory using the manpower mix 
criteria and functional codes.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Are DOD's ISR platforms appropriate for use in the 
contested airspace environment that we see in the PACOM AOR and if not, 
what should we be doing to prepare our ISR assets for the contested 
environment?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Conaway. The PACOM AOR has some of the most technologically 
advanced nations in the field of cybersecurity. What can we do as a 
nation and in the PACOM AOR to defend and defeat any attacks on our 
network?
    Admiral Willard. 1. Defending our networks and defeating attacks 
requires the following:
    a. Exercise a Whole-of-Government or Whole-of-Nation Strategy. The 
DOD must partner closely with U.S. government departments, agencies and 
the private sector to enable a whole of government strategy to address 
diverse cyber threats to military targets, civilian infrastructure, 
personal identifiers and intellectual property. Many of the DOD's 
critical functions and operations rely on commercial assets, including 
internet service providers and global supply chains, over which the DOD 
has no authority to mitigate risk. The DOD is developing partnerships 
with the private sector and government agencies, including law 
enforcement, to best defend U.S. interests in cyberspace. For example, 
a memorandum of agreement has been signed between DOD and DHS to 
enhance inter-departmental strategic planning, synchronization of 
operations and mutual support for capability development.
    b. Recruit, Train, Retain, Organize, and Equip a Cyber Workforce. 
Meeting the dynamic needs of cyber operations and managing cyber risks 
requires a talented, trained force to develop innovative capabilities 
and provide information assurance, real-time situational awareness and 
network environments that are secure and resilient to evolving threats. 
DOD will need to continually develop the integration and resourcing of 
cyber workforce requirements and make itself competitive to entice and 
retain skilled personnel.
    c. Invest in the Development of Industrial Cyberspace Capabilities. 
Technological innovation is at the forefront of national security. The 
DOD will need to enhance its research, development, testing, evaluation 
and acquisition processes to employ rapid cycles of technological 
innovation. The DOD should focus significant investments on developing 
game changing approaches to strengthen its defense capabilities and 
make its systems unrecognizable to malicious activity. For example, we 
should focus research on mission assurance and maintaining effective 
cyberspace operations, including cyberspace maneuvering, active cyber 
defense and full spectrum cyberspace operations. We should also pursue 
new architectures to defend its critical networks, harden systems and 
create assured environments to protect current and future systems from 
attack.
    d. Build Relationships with U.S. Allies and International Partners. 
The development of international shared situational awareness and 
warning capabilities will enable collective cyber self-defense and 
deterrence. By sharing timely indicators and threats, allies and 
international partners can increase collective cyber defense. Thus, DOD 
will need to build and improve relationships with key allies and 
international partners, including efforts to develop standard operating 
procedures for strategic communications, establish cyber centers of 
excellence and advance international cyberspace norms and principles 
that protect the free flow of information, goods and ideas.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Admiral Willard, with the new strategy to shift our 
focus to the Asia-Pacific how do the $487 billion in defense cuts over 
the next 10 years affect your ability as the Combatant Commander 
responsible for the Asia-Pacific to execute this strategy? In my 
opinion you are being asked to do more with a lot less. The Navy's SCN 
account is decreasing, our ship count is decreasing, we are 
decommissioning ships before the end of their service life, and we are 
moving advanced weapons platforms like SSNs, F-35, and SSBN(X) further 
to the right and well outside the FYDP. Do you feel the Navy and Air 
Force will be able to provide PACOM the numbers and types of ships and 
aircraft sufficient to support PACOM's responsibilities under the 
Department's new strategic guidance?
    Admiral Willard. USPACOM has not assessed an ``inability'' to focus 
on Asia-Pacific issues in the near term. As DOD provides further 
details on future expectations, USPACOM will assess current readiness 
accordingly.
    We believe USPACAF and USPACFLT will be able to provide USPACOM the 
numbers of forces sufficient to support our responsibilities. This 
assumes a commitment by the Air Force, Navy and Department of Defense 
to focus investments in the Pacific and availability of partner nation 
capability. The fiscal realities will challenge all of us; however, 
USPACOM and this nation have a long tradition of meeting its 
responsibilities during tough times and will continue to do so in the 
future. The Navy and Air Force will find ways to work together in 
unprecedented ways to meet this challenge through efforts like the Air 
Sea Battle strategy. These efforts will identify requirements, 
establish ownership, find efficiencies and eliminate duplicative 
efforts. Ultimately, this will drive us towards better theater 
integration and coordination of efforts.
    Mr. Wittman. Admiral, in the '70s and '80s you dealt with the 
Soviet Union and operations that supported the Cold War. With China's 
rapid military modernization, do you see the United States entering 
into a Cold War-type scenario with China in the coming years? We have 
the number 1 Navy in the world, how do we mitigate Chinese Navy from 
securing a foothold in the Asia-Pacific that projects power and asserts 
their maritime dominance of the region? Particularly in areas like the 
South China Sea and the East China Sea.
    Admiral Willard. The United States' relationship with China is more 
complex than the relationship between the United States and the Soviet 
Union during the Cold War. The U.S. and USSR bilateral relationship 
existed largely in the diplomatic and security realms. By comparison, 
in addition to our diplomatic and security relationship with China, we 
have robust economic, cultural, environmental, and other linkages that 
make the U.S. and China far more interdependent than the U.S. and USSR 
ever were. I don't think a return to the days of the Cold War is 
plausible and it is certainly not desirable. With regard to maritime 
dominance, the U.S. Navy asserts its right to free and unfettered 
access to the waters beyond the territorial seas of any nation in 
accordance with UNCLOS. We don't question the right of China or any 
nation to enjoy the same free and unfettered access to those waters in 
accordance with international norms and we consistently support the 
peaceful resolution of disputes. The East China Sea and South China Sea 
are congested waterways with multiple overlapping claims of 
sovereignty, including territorial and maritime claims. USPACOM 
conducts routine, coordinated presence operations in the Western 
Pacific in order to ensure a consistent presence, fulfill multiple 
operational requirements, and retain the necessary operational 
flexibility to address contingencies. Throughout the conduct of these 
operations, USPACOM is careful to strike the appropriate balance 
between operations that reassure allies and partners, operations which 
challenge excessive maritime claims, and actions that serve to deter 
behavior which is not consistent with international norms.
    Mr. Wittman. Admiral, the South China Sea continues to become a 
more contentious region with the convergence of sovereignty claims, 
vital international trade routes, expansive natural resources, and 
increasing military strength of multiple countries in the region. With 
the escalating tensions concerning oil and natural gas drilling plans, 
with potentially some American companies involved as well as American 
allies, it seems the question is when the region will spark, not if. My 
question is: What do you see ahead for the South China Sea in the next 
2-5 years? What would you anticipate PACOM's reaction to be if a small 
kinetic conflict broke out between two countries' maritime assets in 
the region? Lastly, do you see the homebasing of 4 LCSs and marines in 
Darwin as a significant gamechanger in future South China Sea issues? 
Do you feel those shifts will escalate or decrease tension in the 
region?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. ADM Willard, please detail for the Committee the 
operational benefits that the capabilities being developed under the 
Counter-Electronics High Power Microwave Advanced Missile Project 
(CHAMP) JCTD offer in your area of operation. In addition, what would 
be the benefits of having additional resources to enhance those 
capabilities?
    Admiral Willard. The Counter-Electronics High Power Microwave 
Advanced Missile Project (CHAMP) JCTD provides us with new approach to 
engage soft electronic systems with significantly reduced collateral 
damage on non-targets. This in turn allows us to engage critical 
targets that are difficult to engage due to location in sensitive areas 
currently on the restricted strike list. An attack by a CHAMP-like 
system also potentially reduces the post-conflict reconstruction over 
kinetic effects. The CHAMP JCTD was designed to demonstrate the 
benefits of engaging targets with High Power Microwaves. Additional 
resources would provide for a program of record for the capability and 
incorporate the solutions to the identified deficiencies of the 
demonstrator system.
    Mr. Heinrich. CENTCOM's Urgent Need for ISR Data led to the 
development and launch of ORS-1, which went operational in January 2012 
and is getting very high marks. Given the new strategic emphasis on 
Asia and the Pacific, with large areas of denied-access terrain, does 
PACOM have an Urgent Need for a similar capability?
    Admiral Willard. The short answer to your question is ``yes''. 
USPACOM has been working closely with the Operationally Responsive 
Space program on a satellite of our own. ORS-2 is in development and 
scheduled to be launched in 2015. While it has a different payload than 
ORS-1, the capability will have a positive impact on USPACOM ISR 
collection gaps, most notably, those areas that are out of the reach of 
our airborne systems.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. There are proposed changes to the basing arrangement 
in the Pacific Theater. How will they affect PACOM's ability to address 
North Korea's nuclear ambitions? How will this affect our ability to 
respond to China's military buildup?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Schilling. What are PACOM's plans to optimize our alliances and 
regional partnerships and do you have benchmarks you are trying to 
achieve?
    Admiral Willard. In general, while cooperation with regional allies 
and partners is generally strong and on a positive trajectory, we 
recognize the need to continue to strengthen our alliances and regional 
partnerships while building new ones. Our bilateral alliances remain 
the cornerstone of regional security and U.S. policy. Our relations 
with our treaty allies have never been better. We aim to encourage 
Korea's increasing emergence as not just a regional power, but a 
responsible global leader. We're working closely with the government in 
Australia on a host of critical security issues and it is our 
indivisible bond with Japan that has driven the United States, 
especially our armed forces, to lead the world's effort to help our 
ally in its time of greatest need. In addition to our close cooperation 
and exercise with our Philippine and Thai allies, the United States is 
also transforming its mil-to-mil relations with a number of emerging 
partners, including Singapore, Indonesia, Vietnam and India. Our 
strategic partnership with India, in particular, holds immense 
potential for shaping a geo-political balance within and beyond the 
region that favors political and economic freedom. In short, the United 
States is well positioned in the Asia-Pacific region, both in terms of 
our expanding partnerships as well as our enduring capabilities, to 
promote our National interests in the dynamic 21st century.
    The United States Pacific Command's Theater Campaign Plan is the 
mechanism used to manage security relations with allies and other 
countries and collaborative relationships with other organizations. The 
plan establishes both long and short term objectives all aimed toward 
achieving the strategic end states outlined in our national level 
strategic guidance. To mitigate risk this plan, and its execution, 
remain adaptive. Twice a year, USPACOM will formally assess the 
campaign. From this assessment, the Command will decide whether to 
adjust the resourcing, execution or priorities of the theater campaign.
    Mr. Schilling. How do you see PACOM moving forward in our 
relationship with Taiwan?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. What were the contributions of the U.S. Coast Guard to 
PACOM in 2011?
    Admiral Willard. a. The Coast Guard Pacific Area Commander, at the 
request of Pacific Command's Asia-Pacific Center for Strategic Studies, 
visited India and participated in a workshop held in Mumbai entitled 
``Exploring India-U.S. Cooperation, Safeguarding Prosperity in the 
Indian Ocean.''
    b. As the Executive Agent for USPACOM to the Quadrilateral Defense 
Working Group, Coast Guard District 14 worked closely with 
representatives from Australia, New Zealand and France to plan and 
conduct maritime operations across Oceania. These operations were 
primarily related to preventing illegal commercial fishing, but they 
also entailed the sharing of information at several levels.
    c. The Coast Guard Pacific Area Command established a Coast Guard 
Reserve Unit at USPACOM. This Reserve Unit will ultimately have a 
complement of 17 Coast Guard Reservists assigned to various Pacific 
Command directorates.
    d. Coast Guard District 14 served as an adjunct component to 
USPACOM in a number of contingency situations. Of particular note, in 
conjunction with New Zealand, District 14 provided critically needed 
fresh water to the New Zealand Territory of Tokelau. Tokelau was just a 
few days away from having no fresh water, whatsoever, when Coast Guard 
Cutter WALNUT arrived with 36,000 gallons of drinking water and a New 
Zealand needs assessment team. Similarly, a District 14 C-130 aircraft 
transported a Navy Environmental and Preventive Medicine Unit and 
Center for Disease Control personnel to the Republic of Marshall 
Islands (Marjuro) to combat an outbreak of Dengue Fever (608 confirmed 
cases). This rapid deployment of control specialists was instrumental 
in preventing the spread and increase in severity of the outbreak; 
consequently there was no loss of life.
    e. Coast Guard District 14 participated with USPACOM in Operation 
Pacific Partnership, the theater's premier humanitarian civic 
assistance program. The program builds and strengthens alliances and 
partnerships with participating host nations and integrated partners.
    f. Coast Guard Pacific Area Command Cutters and personnel 
participated in the Cooperation Afloat and Readiness Training exercise. 
This is a USPACOM-sponsored exercise consisting of a series of multi-
national bi-lateral maritime training events between forces from the 
United States and participating Asian countries.
    g. Coast Guard Pacific Area Command Cutters and personnel 
participated in the Rim of the Pacific Exercise, a biennial field 
training exercise that includes ships, cutters, units and personnel 
from the United States (Navy and Coast Guard), Australia, Canada, 
Chile, Japan, Peru, the Republic of Korea, and the United Kingdom. The 
exercise is designed to enhance interoperability of combined forces and 
improve war fighting capabilities.
    h. Coast Guard District 14 conducted operations with USPACOM as 
part of the Oceania Maritime Security Initiative. Coast Guard Liaison 
Officers rode onboard Navy ships that transited Oceania for the purpose 
of Maritime Domain Awareness involving commercial fishing vessels in 
United States Exclusive Economic Zones and in waters of partner nations 
in Oceania.
    i. Coast Guard District 14 exercised United States Shiprider 
Agreements (there are currently 8 such agreements) with various Pacific 
Island nations by conducting commercial fisheries law enforcement 
patrols that included foreign shipriders onboard Coast Guard Cutters. 
These patrols deterred illegal fishing and protected vital marine 
resources in United States Exclusive Economic Zones, as well as those 
of the Pacific Island nations; thus dove-tailing with Pacific Command's 
broader regional security goals. District 14 has expressed interest in 
establishing two more Shiprider Agreements with additional Pacific 
Island nations, resources permitting.
    j. At the request of USPACOM, Coast Guard Pacific Area Command 
provided support for and participated in various annual training 
exercises with the Republic of Korea.
    k. Coast Guard Pacific Area Command's Maritime Intelligence Fusion 
Center Pacific provided various intelligence products for the Pacific 
Commander:
    1) Maritime Domain Awareness to Navy/Military Sealift Command 
vessels and submarines;
    2) awareness regarding transnational crime, alien migration and 
living marine resources;
    3) daily targeting products regarding foreign flagged ships with 
Chinese, Russian and Ukrainian crews; and
    4) targeting products in support of Operation TOMADACHI, e.g., the 
tracking of vessels that may have been exposed to low level radiation 
when their transit was near Fukushima, Japan.
    l. The Coast Guard acted as a ``door opener'' for USPACOM to 
various foreign nations--notably including (but not limited to) Vietnam 
and India--vis a vis capacity building by conducting 14 Maritime 
Training Team visits and hosting 34 students in resident courses. 
Topics for the Maritime Training Teams included Law Enforcement, Search 
and Rescue, Port Security, Pollution Response and Leadership.
    m. The Coast Guard maintained a Maritime Advisor in Indonesia to 
assist its maritime service with training, capabilities and 
professionalization.
    n. In an effort to enhance the naval capabilities of a USPACOM 
strategic partner, the Coast Guard provided the Republic of the 
Philippines with a former High Endurance Cutter, along with requisite 
training, via the Excess Defense Article process. This Cutter will be 
used by the Philippines to project a greater maritime presence in its 
territorial waters.
    o. The Coast Guard Liaison Officer to USPACOM supported Pacific 
Command initiatives in a variety of instances, e.g., serving as the 
United States Co-Chairman of the Maritime Security Committee for the 
Republic of the Philippines-United States of America Military Defense 
Board/Security Engagement Board.
    p. The Coast Guard funds seven active duty billets at Joint 
Interagency Task Force West (JIATF-W), at a cost of $1,074,184.00. 
JIATF-W is the USPACOM Commander's executive agent for counter 
narcotics. Other JIATF-W support includes:
    --The USCG District Fourteen Intelligence Branch Chief attended the 
JIATFW daily intelligence brief once a week and worked closely with 
JIATFW staff on illicit trafficking events, and provided liaison to 
other Coast Guard and law enforcement entities in the region.
    --During multiple smuggling events, the USCGC SEQUOIA and the 
Maritime Law Enforcement Team from Maritime Safety and Security Team 
Honolulu (91107) were on stand-by to conduct intercept and boarding 
operations against vessels suspected of smuggling.
    --The Coast Guard Cryptologic Unit Hawaii provided direct 
intelligence support for JIATFW's Illicit Tracking Cell and Collections 
Management Branch.
    --The USCG Maritime Intelligence Center Pacific (MIFCPAC) provided 
living marine resources expertise which enabled JIATFW to determine the 
legitimacy of maritime targets, and a myriad of documentation-related 
requests for information concerning suspect vessels.
    --Coast Guard Air Station Barber's Point C-130 maritime patrol 
aircraft provided airborne maritime domain awareness during scheduled 
patrols for District Fourteen, which enabled JIATFW analysts to 
determine an accurate picture of what vessels were actually on the 
water at any given time.
    --The Coast Guard Investigative Service worked closely with 
JIATFW's Special Programs Application program manager, and this 
collaboration resulted in the seizure of 900 kilograms of marijuana; 
the confiscation of one fishing vessel suspected of drug trafficking; 
nine illegal migrants taken into custody, including one with an 
outstanding warrant in another state, and identified maritime smuggling 
routes from Mexico to the United States.
    Mr. Scott. What is the role of military bands within PACOM and are 
they a cost-effective way of bringing people together and fostering 
greater understanding?
    Admiral Willard. The military bands within USPACOM are one of the 
most effective means of fostering relationships between allies, 
partners and even our adversaries. They use music to bridge language, 
cultural, societal and socio-economic differences. These bands provide 
a soft power projection tool for theater security cooperation efforts 
and helps build strong relationships with countries throughout the 
USPACOM AOR. Each band has objectives which include building 
partnerships, sustaining war fighter morale, encouraging and enabling 
coalition partners, providing precise ceremonial engagements, 
recruitment of talented service members and fostering military pride, 
patriotism and service.
    In portions of the Pacific, there are times when a military band is 
the exact right instrument of national power to employ, especially when 
other combat capabilities are in short supply and better employed 
elsewhere. The USPACOM military bands have bridged gaps in 
relationships that are decades old, such as the Marine Forces Pacific 
Band being the first U.S. band to visit Cambodia since the Vietnam War 
or the III Marine Expeditionary Force (III MEF) Band being the first 
U.S. band to travel to mainland communist China. During that trip, the 
band performed at the Shanghai International Music Festival where they 
were able to interact with the People's Liberation Army Band, as well 
as bands from Japan, Malaysia, Thailand and the Republic of Korea. The 
band was able to positively influence relations with the people of 
these nations through their participation in the festival as well as 
engaging with the local schools by providing one-on-one instruction and 
training students how to repair and maintain the longevity of their 
instruments.
    USPACOM military bands also perform multiple community relations 
roles through participating in humanitarian assistance and civic 
initiatives. The U.S. Pacific Fleet and Marine Forces Pacific Band both 
contribute to the annual Pacific Partnership deployment where they and 
other Services members work closely with host nations, partner nations, 
non-governmental organizations and other U.S. government agencies to 
leave a lasting impact through cooperative engagements in the region.
    In 2010 the Acting Consul General of Russia, Patricia Miller, 
stated, of the 25th Infantry Division Band's visit to Sakhalin Island 
region, ``their concerts in three days did more to showcase America 
than what the Consulate could have done in several months. The Russians 
were able to see a very human side of the U.S. Army.''
    Due to the unique capabilities of USPACOM bands and the ability to 
reach hundreds of thousands of people through the universal language 
and appeal of music, there is no other PACOM asset that can reach so 
many people in such a meaningful, peaceful and lasting way.
    Mr. Scott. What is the role of the U.S. Coast Guard in building 
partnerships within PACOM's AOR?
    Admiral Willard. a. The U.S. Coast Guard's (USCG) 27,000 personnel 
in the Pacific Area frequently support USPACOM, engaging in a wide 
range of activities that support USPACOM's Theater Campaign Plan. In 
addition to USCG International engagements such as the North Pacific 
Coast Guard Forum and International Ship & Port Facility Security Code 
assessments, the USCG supports USPACOM's exercises such as Rim of the 
Pacific (RIMPAC), a biennial Field training exercise that includes 
ships, cutters, units and personnel from the U.S., Australia, Canada, 
Chile, Japan, Peru, the Republic of Korea and the United Kingdom. The 
USCG also supports Pacific Fleet's CARAT exercise in Thailand, the 
multi-lateral Southeast Asia exercise Cooperation Against Terrorism 
(SEACAT) and the proliferation security initiative exercise DEEP SABRE.
    b. As the Executive Agent for USPACOM to the Quadrilateral Defense 
Working Group, Coast Guard District 14 (based in Honolulu HI) worked 
closely with representatives from Australia, New Zealand and France to 
plan and conduct maritime operations across Oceania. These operations 
were primarily related to preventing illegal commercial fishing, but 
they also entailed the sharing of information at several levels.
    c. Coast Guard District 14 served as an adjunct component to 
USPACOM in a number of contingency situations. Of particular note, in 
conjunction with New Zealand, District 14 provided critically needed 
fresh water to the New Zealand Territory of Tokelau. Tokelau was just a 
few days away from having no fresh water whatsoever when Coast Guard 
Cutter WALNUT arrived with 36,000 gallons of drinking water and a New 
Zealand needs assessment team. Similarly, a District 14 C-130 aircraft 
transported a Navy Environmental and Preventive Medicine Unit and 
Center for Disease Control personnel to the Republic of Marshall 
Islands (Marjuro) to combat an outbreak of Dengue Fever (608 confirmed 
cases). This rapid deployment of control specialists was instrumental 
in preventing the spread and increase in severity of the outbreak; 
consequently there was no loss of life.
    d. In 2011, the USCG supported U.S. Pacific Fleet's premier 
Humanitarian Exercise, Pacific Partnership, for the first time with two 
cutters, supporting engagements in Tonga and Micronesia. Pacific 
Partnership consisted of 600 military, interagency and non-governmental 
organizational medical professionals and engineers engaging the 
countries of Tonga, Vanuatu, Papua-New Guinea, Timor-Leste and the 
Federated States of Micronesia. The USCG is currently programmed to 
support Pacific Partnership 13, next year, which is scheduled to visit 
the Oceania region of the USPACOM AOR.
    e. The USCG provided significant support to USPACOM by acting as a 
``door opener'' to various foreign nations--notably (but not limited 
to) Vietnam and India--vis a vis capacity building by conducting 14 
Maritime Training Team visits and hosting 34 students in resident 
courses. Topics for Maritime Training Teams included Law Enforcement, 
Search and Rescue, Port Security, Pollution Response and Leadership. f. 
Coast Guard Pacific Area Command Cutters and personnel participated in 
the Cooperation Afloat and Readiness Training exercise. This is a 
USPACOM-sponsored exercise consisting of a series of multi-national bi-
lateral maritime training events between forces from the United States 
and participating Asian countries.
    g. In an effort to enhance the naval capabilities of a USPACOM 
strategic partner, the Coast Guard provided the Republic of the 
Philippines with a former High Endurance Cutter, along with requisite 
training, via the Excess Defense Article process. This Cutter will be 
used by the Philippines to project a greater maritime presence in its 
territorial waters.
    h. Coast Guard District 14 exercised United States Shiprider 
Agreements (there are currently 8 such agreements) with various Pacific 
Island nations by conducting commercial fisheries law enforcement 
patrols that include foreign shipriders onboard Coast Guard Cutters. 
These patrols deterred illegal fishing and protected vital marine 
resources in United States Exclusive Economic Zones, as well as those 
of the Pacific Island nations, thus dovetailing with Pacific Command's 
broader regional security goals. District 14 has expressed interest in 
establishing two more Shiprider Agreements with additional Pacific 
Island nations, resources permitting.
    i. The USCG International Training Detachment provides Mobile 
Training Teams (MTTs) on various maritime safety and security topics to 
countries throughout the Pacific. Last year countries included 
Bangladesh, Cambodia, East Timor, Indonesia, Malaysia, Marshall Islands 
and Western Samoa.
    Mr. Scott. How would you rate the performance of E-8C JSTARS 
aircraft within PACOM?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. The hospital ships Comfort and Mercy are high-demand, 
low-density platforms. If the United States had a larger fleet of 
hospital ships, would there be enough work for them to perform within 
PACOM's AOR?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. How would you assess the current state of Taiwan's 
submarine fleet?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. Which aircraft is better suited in combat against 
China's J-20: an upgraded F-16 A/B or the F-35 Joint Strike Fighter?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. Besides the Republic of China, are U.S. Flag and General 
Officers banned from visiting any other country within PACOM's AOR?
    Admiral Willard. State Department and OSD have strict policies that 
restrict U.S. Flag and General Officers from visiting Burma. Officers 
of the rank of O-6 and above require permission from the highest levels 
of OSD and STATE. The U.S. DOD policy on military engagement with Burma 
has not changed. The below excerpt is from OSD-P:
    --DOD policy is not to engage with Burma's military. This policy 
includes, but is not limited to, a prohibition on any form of security 
assistance or cooperation, such as Foreign Military Financing or 
International Military Education and Training, arms transfers, foreign 
counterpart visits and bilateral meetings--State has the lead on 
diplomatic engagement with Burma and the Department of Defense is 
prepared to provide any necessary support.
    Mr. Scott. Does the present ban on U.S. flag and general officers 
from visiting the Republic of Taiwan violate the Taiwan Relations Act?
    Admiral Willard. No, the present restrictions on visits by U.S. 
flag and general officers to Taiwan do not violate the Taiwan Relations 
Act. The Act does not expressly mandate such restrictions, nor does it 
expressly prohibit such restrictions.
    Mr. Scott. What would be the deterrence value if Taiwan were to 
acquire 10 diesel-powered submarines?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. If Taiwan had 20,000 sensor fuzed munitions, would it 
greatly increase Taiwan's ability to deter a Chinese invasion force?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. Would MTCR (Missile Technology Control Regime) 
compatible (300km range) missiles offer Taiwan any numerous asymmetric 
advantages?
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    Mr. Scott. Will Taiwan require 5th generation fighters in the 2020s 
given the current security situation?
    Admiral Willard. I believe Taiwan will require an inject of 
additional fighter aircraft in the future to address the decline of its 
overall fighter inventory and to ensure it can carry out its basic 
defense functions. Any such capability would still need to be part of a 
truly integrated air and missile defense system that is mobile and 
redundant to include an air force protection plan that promotes airbase 
hardening.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
